<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                         DEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee did not hold formal 
hearings for the Government Publishing Office, Office of 
Compliance, Open World Leadership Center, and the Office of the 
Secretary of the Senate. Following are the statements submitted 
by them:]

                   U.S. GOVERNMENT PUBLISHING OFFICE

           Prepared Statement of Davita Vance-Cooks, Director
           gpo's appropriations request for fiscal year 2017
    Madam Chairwoman and Members of the Subcommittee on Legislative 
Branch Appropriations, I have the honor to transmit herewith the 
appropriations request of the U.S. Government Publishing Office (GPO) 
for fiscal year 2017.

    The U.S. Government Publishing Office.--As an agency of the 
Legislative Branch, the U.S. Government Publishing Office (GPO) is the 
OFFICIAL, DIGITAL, SECURE resource for producing, procuring, 
cataloging, indexing, authenticating, disseminating, and preserving the 
official information products of the Federal Government.
    Under Title 44 of the U.S. Code, GPO is responsible for publishing 
the information products of all three branches of the Federal 
Government, including the official publications of Congress and the 
White House, U.S. passports for the Department of State, and the 
official publications of other Federal agencies and the courts. Once 
primarily a printing operation, we are now an integrated publishing 
operation and carry out our mission using an expanding range of digital 
as well as conventional formats. Congress and the President recognized 
this change in our operations in the Consolidated and Continuing 
Appropriations Act for Fiscal Year 2015 (Public Law 113-235), which 
contains a provision re-designating GPO's official name as the 
Government Publishing Office. GPO currently employs about 1,700 staff.
    Along with sales of publications in digital and tangible formats to 
the public, GPO supports openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through our Federal Digital System (FDsys, at www.fdsys.gov), 
which today makes more than 1 million Federal titles available online 
from both GPO and links to servers in other agencies. In 2015 FDsys 
averaged 47 million retrievals per month, with a spike up to 52.9 
million retrievals in August 2015. We also provide public access to 
Government information through partnerships with 1,159 Federal, 
academic, public, law, and other libraries nationwide participating in 
the Federal Depository Library Program.
    In addition to GPO's Web site, gpo.gov, we communicate with the 
public routinely via Facebook facebook.com/USGPO, Twitter twitter.com/
USGPO, YouTube youtube.
com/user/gpoprinter, Instagram instagram.com/usgpo, LinkedIn 
linkedin.com/
company/u.s.-government-printing-office, and Pinterest pinterest.com/
usgpo/.

    History.--From the Mayflower Compact to the Declaration of 
Independence and the papers leading to the creation and ratification of 
the Constitution, America has always been a nation based on documents, 
and our governmental tradition reflects that fact. Article I, section 5 
of the Constitution requires that ``each House shall keep a journal of 
its proceedings and from time to time publish the same.'' After years 
of struggling with the problems associated with various systems of 
contracting for its printed documents, in 1860 Congress created the 
Government Printing Office as its official printer. GPO first opened 
its doors for business on March 4, 1861, the same day Abraham Lincoln 
was inaugurated as the 16th President of the United States.
    Since that time, GPO has produced and distributed the official 
version of every great American state paper and an uncounted number of 
other Government publications, documents, and forms. These documents 
include the Emancipation Proclamation, the legislative publications and 
acts of Congress, Social Security cards, Medicare and Medicaid 
information, census forms, tax forms, citizenship forms, passports, 
military histories ranging from the Official Records of the War of the 
Rebellion to the latest accounts of our forces in Afghanistan, the 9/11 
Commission Report, Presidential inaugural addresses, and Supreme Court 
opinions. GPO's work to keep America informed goes on today, in both 
digital as well as print forms.

    Strategic Vision.--GPO has transformed from a print-centric to a 
content-centric publishing operation. This digital transformation is 
consistent with the goals outlined in President Obama's roadmap for a 
digital Government (Digital Government: Building a 21st Century 
Platform to Better Serve the American People, May 2012). It is also 
consistent with the recommendations submitted to Congress by the 
National Academy of Public Administration (Rebooting the Government 
Printing Office: Keeping America Informed in the Digital Age, January 
2013).
    In fiscal year 2017 and the years ahead, GPO will continue to 
develop an integrated, diversified product and services portfolio that 
focuses primarily on digital. Tangible print will continue to be 
required because of official use, archival purposes, authenticity, 
specific industry requirements, and segments of the population that 
either have limited or no access to digital formats, though we 
anticipated that its use will continue to decline.

    Strategic Plan.--GPO's strategic plan, which is available for 
public review at gpo.gov/about, is built around four goals: satisfying 
our stakeholders, offering products and services, strengthening our 
organizational foundation, and engaging our workforce. The plan 
provides the blueprint for how GPO will continue to achieve its mission 
of Keeping America Informed with an emphasis on being OFFICIAL, 
DIGITAL, SECURE. GPO's senior managers convene at the beginning of each 
fiscal year to review the plan and approve it before it is issued.
    GPO's customers are involved in the digital world and understand 
technological change. Accordingly, it is important that GPO fosters an 
environment that embraces change and innovation, which leads to new 
ways of thinking, new work processes, and the development of new 
products and services for GPO's customers. Tangible printing at GPO is 
declining while there has been an exponential growth in digital 
requirements by Congress and Federal agencies. Moreover, the public--
including the library and Government information user communities--has 
signaled its strong desire for increased access to Government 
information digitally.
    GPO has changed to anticipate and accommodate those requirements. 
The content received from Congress and Federal agencies needs to be 
managed through a life cycle process that supports the primary 
requirement to make the digital version of publications permanently 
available online, and to print only when required or otherwise 
necessary. This policy is consistent with the President's Executive 
order on printing issued in November 2011.
    In transforming its business model, GPO is focusing on managing 
content for customer and public use both today and tomorrow. GPO uses 
its extensive experience and expertise with digital systems to provide 
both permanent public access to Government information in a variety of 
formats and the most efficient and effective means for printing when 
required, all within a secure setting that is responsive to the 
customer's needs.

    Technology Transformation.--GPO has continually transformed itself 
throughout its history by adapting to changing technologies. In the 
ink-on-paper era, this meant moving from hand-set to machine 
typesetting, from slower to high-speed presses, and from hand to 
automated bookbinding. These changes were significant for their time.
    Yet those changes pale by comparison with the transformation that 
accompanied our incorporation of electronic information technologies, 
which began more than 50 years ago in 1962 when the Joint Committee on 
Printing directed the agency to implement a new system of computer-
based composition. That order led to the development of GPO's first 
electronic photocomposition system, which by the early 1980's had 
completely supplanted machine-based hot metal typesetting. Following 
the enactment of the GPO Electronic Information Access Enhancement Act 
in 1993, the databases generated by our composition system were 
uploaded to the Internet via GPO's first Web site, GPO Access, vastly 
expanding the agency's information dissemination capabilities. Those 
functions continue today with FDsys and our newly introduced site 
govinfo on a more robust and comprehensive scale.
    While transforming to an increasingly digital footing, GPO 
continues to provide an array of printing services to support the needs 
of Congress, Federal agencies, and the public. GPO is retooling its 
print operations to utilize a smaller, more flexible, more digitally-
based equipment profile than previously. In fiscal year 2015 we put 
into operation our new zero make-ready (ZMR) press to support 
congressional and Federal agency publishing requirements. As previously 
reported, this new press will allow us to eventually phase out three 
outdated presses installed in 1979. We are continually reviewing 
product and equipment options to ensure that our publishing activities 
are conducted with the most efficient, effective technologies 
available.
    As a result of these sweeping technology changes--digital products, 
equipment, and processes--GPO is now fundamentally different from what 
it was as recently as a generation ago. It is smaller, leaner, and 
equipped with digital production capabilities that are the foundation 
of the information systems relied upon daily by Congress, Federal 
agencies, and the public to ensure open and transparent Government in 
the digital era. As we prepare GPO for the Government information 
environment and technology challenges of the future, our transformation 
is continuing with the development of new ways of delivering Government 
information, including apps and bulk data download files.

    Appropriations Request.--We are requesting funding for our three 
appropriated accounts: the Congressional Publishing Appropriation, the 
appropriation for the Public Information Programs of the Superintendent 
of Documents, and the appropriation to our Business Operations 
Revolving Fund, which serves as an addition to working capital in the 
Fund for specified projects. The Congressional Publishing and Public 
Information Programs accounts fund GPO's provision of congressional 
information products and services as authorized by law and our 
provision of public access to congressional and other Government 
information products through statutorily-authorized information 
dissemination programs.
    All other GPO programs and activities--including the production of 
U.S. passports for the Department of State as well as secure 
credentials as requisitioned by Federal agencies, the production and 
procurement of other information products and services for Federal 
agencies, the sales of Government information products and services to 
the public, and related operations--are financed on a reimbursable 
basis through GPO's Business Operations Revolving Fund, which is 
authorized through the annual Legislative Branch Appropriations bill.
    We are requesting a total of $117,068,000 for fiscal year 2017. 
This is the same as the level of funding approved for fiscal year 2016 
in Public Law 114-113. Total GPO appropriations have declined by nearly 
21 percent since fiscal year 2010 and are currently at their lowest 
level since then. Our continued transition to digital technologies and 
products has increased our productivity and reduced costs. 
Additionally, maintaining financial controls on our overhead costs, 
coupled with a buyout in fiscal year 2015 that reduced GPO's workforce 
by 103 positions, has helped make this funding request possible. 
Finally, the utilization of the unexpended balances of prior year 
appropriations, which we are able to transfer to GPO's Business 
Operations Revolving fund with the approval of the Appropriations 
Committees, has made it possible in recent years to hold the line on 
the level of new funding we request.

                       Total Appropriations to GPO
                          Fiscal Year 2010-2016
 
                      Fiscal Year       Appropriation
 
                   2010               $147,461,000
                   2011               $135,067,324
                   2012               $126,200,000
                   2013               $117,533,423
                   2014               $119,300,000
                   2015               $119,993,000
                   2016               $117,068,000
 


    Our fiscal year 2017 request will enable us to:

  --meet projected requirements for congressional publishing;
  --fund the operation of the public information programs of the 
        Superintendent of Documents; and
  --develop information technology including IT security and perform 
        facilities maintenance and repairs that support our 
        congressional publishing and public information programs 
        operations.

    Congressional Publishing Appropriation.--We are requesting 
$79,736,000 for this account, the same level approved for fiscal year 
2016 in Public Law 114-113 and every year since fiscal year 2014. This 
appropriation--which is for the production of congressional documents 
and information products that are essential to the legislative process 
in Congress, such as the Congressional Record, bills, reports, 
hearings, and other documents--has declined by nearly 15 percent since 
fiscal year 2010, as the result of our continuing transition to digital 
technology and products as well as actions taken in cooperation with 
the House of Representatives and the Senate to control congressional 
publishing costs. Unspent prior year balances from this account that 
have been transferred to GPO's Business Operations Revolving Fund are 
available for the purposes of this account.

                 Congressional Publishing Appropriation
                          Fiscal Year 2010-2016
 
                      Fiscal Year       Appropriation
 
                   2010               $93,768,000
                   2011               $93,580,464
                   2012               $90,700,000
                   2013               $82,129,576
                   2014               $79,736,000
                   2015               $79,736,000
                   2016               $79,736,000
 


    House Report 114-110, accompanying the Legislative Branch 
Appropriations bill for fiscal year 2016, requires the presentation of 
budget requirements from a zero base. However, GPO has no control over 
the workload requirements of the Congressional Publishing 
Appropriation. These are determined by the legislative activities and 
requirements of the House of Representatives and the Senate as 
authorized by the applicable provisions of Title 44, U.S.C. GPO 
utilizes historical data incorporating other relevant factors to 
develop estimates of likely congressional publishing requirements. 
These requirements are used as the basis of the budget presentation for 
this account.
    The estimated requirements for fiscal year 2017 include a projected 
price level increase of $2,125,000, primarily to cover employee pay 
increases equivalent with those paid government-wide. Offsetting this 
will be a $5,403,000 decrease in program requirements attributable to 
anticipated volume decreases for the Congressional Record, 
miscellaneous publications, miscellaneous publishing and services, 
business and committee calendars, and hearings.
    As shown on page E-3 of our budget justification for fiscal year 
2017, the unexpended balances of prior year appropriations that have 
been transferred to GPO's Business Operations Revolving Fund will be 
used to offset anticipated requirements for fiscal year 2016 and 2017, 
so that appropriation requirements for those years can remain stable at 
$79,736,000 each year. Compared to fiscal year 2016, we project there 
will be a decrease of $3,278,000 in the need for this funding. The 
balance of these funds is earmarked for GPO's critically important 
Composition System Replacement (CSR) project, involving the development 
of an XML- based composition system to replace our 30+ year-old 
Microcomp system used in the preparation of congressional documents for 
digital and print access.

    Public Information Programs of the Superintendent of Documents.--We 
are requesting $29,500,000 for this account, representing a decrease of 
$1,000,000 or 3.3 percent from the amount approved for fiscal year 2016 
in Public Law 114-113. This appropriation, which is primarily for the 
operation of the Federal Depository Library Program, has declined by 
more than 27 percent since fiscal year 2010, as the result of our 
continuing transition to digital technology and products which has made 
the increased dissemination of official Government information to the 
public less costly and more efficient. The requested amount is based on 
the outcome of using zero-based budgeting to determine the proper 
levels of funding needed to perform program activities at minimum 
levels, as directed by House Report 114-110.

     Public Information Programs of the Superintendent of Documents
                              Appropriation
                          Fiscal Year 2010-2016
 
                      Fiscal Year       Appropriation
 
                   2010               $40,911,000
                   2011               $39,831,178
                   2012               $35,000,000
                   2013               $31,437,000
                   2014               $31,500,000
                   2015               $31,500,000
                   2016               $30,500,000
 


    The funding we are requesting for fiscal year 2017 will cover 
mandatory pay and related cost increases of $389,000. Merit and other 
pay increases are included for 94 FTE's, the same as for fiscal year 
2016. In addition, the requested funding covers projected price level 
increases of $28,000, including ongoing systems maintenance and FDsys 
operating expenses.
    As with our Congressional Publishing Appropriation, unspent 
balances of prior year appropriations that have been transferred to 
GPO's Business Operations Revolving Fund will be used to offset 
anticipated requirements for fiscal year 2016 and 2017. These 
requirements include projects to continue transitioning GPO's Public 
Information Programs to an increasingly digital basis, including the 
modernization of legacy IT systems, automation of depository 
distribution, the replacement of GPO's Integrated Library System, bulk 
harvesting and content management, enhanced Web-based applications, and 
the development of metadata and parsers for the digitized Congressional 
Record and Federal Register. The use of these funds enables GPO to 
reduce its appropriations requirements while continuing to perform 
essential services and carry out digital transformation projects.

    Business Operations Revolving Fund.--Appropriations to this account 
are for working capital used for information technology projects and 
facilities repairs. We are requesting $7,832,000 for fiscal year 2017, 
to remain available until expended. This compares with $6,832,000 that 
was appropriated for fiscal year 2016. Since fiscal year 2013, the 
projects funded by appropriations to this account have consistently 
included improvements to GPO's FDsys, which has expanded public access 
to congressional and other Government information products in digital 
formats while decreasing the costs of distributing traditional print 
formats, as well as other essential IT projects. Our request this year 
includes necessary expenses associated with enhancing the cybersecurity 
of GPO's IT systems in the wake of successful cyberattacks this past 
year on the Office of Personnel Management and other Government 
systems. We also fund necessary physical infrastructure projects 
through appropriations to this account.

        Appropriations to the Business Operations Revolving Fund
                          Fiscal Year 2010-2016
 
                      Fiscal Year       Appropriation
 
                   2010               $12,782,000
                   2011               $ 1,655,682
                   2012               $   500,000
                   2013               $ 3,966,847
                   2014               $ 8,064,000
                   2015               $ 8,757,000
                   2016               $ 6,832,000
 
    Information Technology Projects for Fiscal Year 2017--$5,875,000
 


FDsys Projects--$4,175,000
  --General System and Collection Development ($3,400,000).--
        Development of new FDsys features to support identified needs 
        of key stakeholders, including developing new content 
        collections, increasing content in existing collections, 
        enhancing the accessibility of content, and increasing the 
        discoverability of information.
  --NextGen FDsys Public Website ($450,000).--Completion of development 
        and switchover to FDsys NextGen to support a responsive user 
        interface, search engine replacement, publication linking, user 
        interface improvements, and content curation.
  --FDsys Infrastructure ($325,000).--Infrastructure for the hardware, 
        storage, and environments to manage system performance as FDsys 
        content and usage continues to grow.
Information Technology Security--$1,700,000
  --Security Enhancements for Advanced Persistent Threat 
        ($1,500,000).--Required for enhanced technologies and services 
        to combat, detect, and prevent advanced persistent threats 
        (including sophisticated nation-state actors) from compromising 
        GPO IT systems.
  --Wireless Intrusion Prevention ($100,000).--Required to provide 
        enhance ability to prevent and detect intrusion attempts 
        specifically targeted at wireless systems at GPO.
  --Log Collector (Tech Refresh) ($100,000).--Required to replace old 
        and near obsolete log collector systems in order to have 
        sufficient audit trail logs for security investigations and 
        detection/prevention of intrusion attempts.
Facilities Infrastructure Projects for Fiscal Year 2017--$1,957,000
  --Elevator Repairs ($1,000,000).--Elevators 39, 40, and 41 comprise 
        the main vertical artery for Plant Operations to move 
        congressional products between press and bindery operations. 
        They also support employee life/safety by providing a means for 
        evacuation of medical emergencies.
  --Emergency Power Generator ($500,000).--The power blackout by PEPCO 
        in summer 2015 exposed the need for an upgrade to GPO's 
        emergency generators to support expanded lighting and other 
        electrical requirements.
  --Uninterrupted Power Supply for Data Center ($257,000).--The current 
        UPS design and equipment are both obsolete. To ensure uptime 
        and equipment integrity in GPO's data center, these systems 
        need to be replaced.
  --Upgrade Electrical Panels/Wiring ($200,000).--This will address the 
        obsolete and often deteriorating condition of the central power 
        distribution feeds that are original to the GPO building 
        complex (the newest building of which dates to 1940). The 
        outdated wiring represents a safety hazard.

    Chairwoman Capito and members of the subcommittee, we thank you for 
your continued support and for the funding for GPO included in Public 
Law 114-113. We look forward to working with you and your staff in your 
consideration of our appropriations request for fiscal year 2017.

                          OFFICE OF COMPLIANCE

       Prepared Statement of Barbara J. Sapin, Executive Director
                    fiscal year 2017 budget request
    Madam Chairwoman Capito, Ranking Member Schatz, and Members of the 
Legislative Branch Subcommittee, thank you for allowing me the 
opportunity to submit for the record, this statement regarding the 
budget request for fiscal year 2017 for the Congressional Office of 
Compliance (OOC).
    Before I get to the budget request, I want to express our 
appreciation for your support for the mission and efforts of the OOC. 
This year marks the twentieth anniversary of the OOC's existence. For 
two decades, our little known independent agency has advanced workplace 
rights for employees of the Legislative Branch, and helped make offices 
on Capitol Hill safer places to work and visit.
    Congress created the Office of Compliance to administer the 
Congressional Accountability Act of 1995 (CAA) and the 13 Federal 
workplace laws incorporated in the law. We ensure the integrity of a 
dispute resolution system; carry out an education and training program 
that assists employing offices and covered employees in understanding 
their rights and responsibilities under the CAA; advise Congress on 
needed changes and amendments to the CAA; and investigate and enforce 
the CAA's occupational safety and health protections, public access 
rights for persons with disabilities, and unfair labor practice 
provisions.
    The Office of Compliance is requesting $4,315,151 for fiscal year 
2017 operations, which represents a 9 percent increase from the fiscal 
year 2016 enacted level. Of the additional $356,161 that is being 
requested, 79.89 percent reflects a projected increase in personnel, 
benefits and other personnel compensation. The remaining fiscal year 
2017 budget request focuses on supporting the most important aspects of 
the statutory functions of the Office of Compliance and improving the 
delivery of services to the covered community.
Administrative Dispute Resolution Program
    The centerpiece of the CAA is the model confidential administrative 
dispute resolution (ADR) process--counseling, mediation and 
adjudicative hearings and appeals. The OOC staff is committed to 
administering an effective ADR program by providing a neutral, 
efficient and confidential process for resolving workplace disputes at 
the lowest level. We strive to ensure that stakeholders have full 
access to the ADR procedures.
    In fiscal year 2016, we began the process of replacing our outdated 
case handling system with a new and more comprehensive case management 
system (CMS) which recently went live. As we continue to finalize the 
new CMS, we look forward to being able to create more efficient reports 
that will help the OOC spot trends and develop necessary training. Our 
budget request contains funds that are necessary to create and maintain 
an e-filing system that would be integrated with this new case 
management system. This functionality will not only provide for more 
streamlined service delivery by our Office to the Congressional 
community, but will lend itself to timelier dispute resolution as well 
as allow cost savings in the long run.
Education and Training Programs
    In addition to providing an effective ADR program, the OOC 
administers an education and training program for the covered 
community. In all areas of discrimination prevention, a comprehensive 
training program continues to be the most effective investment an 
organization can make in reducing complaints and creating a more 
productive workforce. Training programs have been linked to a reduction 
in discrimination complaints by approximately 25 percent in the 
executive branch.
    The congressional workforce benefits from continued training 
provided by the OOC. Further, the OOC can positively impact decisions 
made by managers and chiefs of staff on employees' rights incorporated 
in the CAA. Our aim is to provide the information that leads a manager 
to the right and just solution to workplace issues and eliminates the 
controversies and complaints. Although our staff is small, we produce 
written materials on the rights, protections, and responsibilities 
under the CAA, and we conduct personal briefings to employing offices 
on our case processing procedures and the substantive Federal laws as 
applied to the legislative branch by the CAA.
    Our training and outreach efforts are changing from in-person 
contacts to Internet based communications. As we move further into the 
digital age, we must make necessary changes. This shift in focus is 
essential in carrying out our statutory educational mandate.\1\ Our 
budget request reflects our need for improvements to our existing Web 
site www.compliance.gov, not only to support our continuing need to 
bring the site into compliance with existing cybersecurity standards, 
but also to allow for necessary capacity to host our newly launched on-
demand on-line training modules and Webinars. We are developing on-line 
training to reach more employees, especially those working in the 
districts who are otherwise unable to attend in-person training 
sessions on the Hill.
---------------------------------------------------------------------------
    \1\ Public Law 104-1, Section 302(h)(1).
---------------------------------------------------------------------------
    Our fiscal year 2017 budget request also includes funds that will 
be used for technical enhancements to develop new training methods, 
such as videos and interactive modules that will instruct on important 
office safety and health matters as well as best practices and insights 
around paternity/maternity issues, non-discriminatory telework 
policies, Family and Medical Leave Act compliance, and reasonable 
accommodations for staffers under the Americans with Disabilities Act.
Safety and Health and Public Access
    Before the OOC opened its doors in 1996, Capitol Hill buildings had 
not been subject to even the most basic building codes or regulations. 
The first inspections led to the discovery of serious fire and other 
safety hazards in House and Senate buildings and around the Capitol. 
Each year, since those first inspections, at the urging of the OOC, 
Congress has abated thousands of serious hazards, reduced numerous 
barriers to access for individuals with disabilities, and thus 
dramatically improved the overall safety and accessibility of the 
Capitol Hill campus. In a post-9/11 world, the OOC's focus has expanded 
to promoting safe emergency evacuation plans, ensuring adequate alarm 
and warning systems, and promoting staff training.
    Our budget request reflects the immediate need to continue the 
OOC's significant contributions to the safety and accessibility of 
Congressional workplaces through its OSH and ADA biennial inspections 
and its case work investigating safety issues and finding solutions for 
barriers to access in Congressional facilities and programs. By working 
directly with the AOC and other offices on the Hill, the OOC has been 
instrumental in the development and implementation of cost-effective 
solutions to safety and access problems. An increase in its 
appropriation would allow the OOC to expand its inspection programs to 
include more pre-construction evaluations of projects to minimize or 
eliminate potential safety and accessibility issues. These pre-
construction reviews, which the OOC has been able to do to a limited 
extent in the past, provide tremendous cost savings by minimizing or 
eliminating expensive post-construction corrections that have riddled 
many past construction projects.
    The balance of the 9 percent increase requested covers increases in 
contract services, including cross servicing providers, such as the 
Library of Congress and the National Finance Center, and other 
services, equipment and supplies needed to operate the OOC. The 
services include training development and video production, as well as 
technical support for the ever-growing social media environment on the 
Hill, which presents an opportunity to highlight best practices and 
provide important information to employees who have little time for 
training updates.
    The OOC staff and I are available to answer any questions or 
address any concerns the Chair of the subcommittee or its members may 
have.

                      OPEN WORLD LEADERSHIP CENTER

  Prepared Statement of Ambassador John M. O'Keefe, Executive Director
        ``Since participating in Open World as a journalist several 
        years ago, I have often referred to the lessons learned and 
        best practices that were demonstrated during my program. As 
        Head of the Parliamentary Committee on Preventing and 
        Combatting Corruption, I remember well that most of the 
        Americans I've met believed they can achieve anything they 
        want. Open World's network of alumni in Ukraine consists of a 
        new generation of Ukrainians working to improve their country 
        and fight corruption in these trying times. I hope that 
        Congress continues this program as it is important for 
        Ukraine.''

    Members of the subcommittees, thank you for the opportunity to 
submit testimony for the record on the Open World Leadership Center. 
Congressional participation in our programs and on our governing board 
has made Open World a uniquely qualified instrument for members and 
their constituents and for communities across America. All of us at 
Open World are deeply grateful for your support.
Overview
    By the close of 2015, the Open World Leadership Center (the Center 
or Open World) had brought more than 25,000 young and emerging leaders 
from 19 countries.\1\ These talented and engaged political and civic 
leaders were hosted in all 50 States by nearly 8,000 families in some 
2,300 communities across the United States.
---------------------------------------------------------------------------
    \1\ Current countries (14) include Armenia, Azerbaijan, Estonia, 
Georgia, Kazakhstan, Kosovo, Kyrgyzstan, Moldova, Mongolia, Russia, 
Serbia, Tajikistan, Turkmenistan, and Ukraine; past countries (5) 
include Belarus, Egypt, Lithuania, Turkey, and Uzbekistan.
---------------------------------------------------------------------------
    As a U.S. legislative branch entity, Open World actively supports 
the foreign relations role and efforts of Congress by linking delegates 
to members and their enthusiastic constituents throughout the United 
States who are engaged in projects and programs in Open World 
countries. The Open World program routinely involves members in its 
hosting activities with more than 80 percent of delegates meeting with 
Members of Congress or their staff representatives last year.
    The Center also regularly consults with the Commission of Security 
and Cooperation in Europe, the House Democracy Partnership, the 
Congressional Ukrainian Caucus, the Senate Ukraine Caucus, the Albania 
Issues Caucus, Congressional Serbian Caucus, the Caucus on U.S.-Turkey 
Relations & Turkish Americans, the Friends of Kazakhstan Caucus, the 
Congressional Caucus on Central Asia, the Congressional Mongolia 
Caucus, other congressional entities, and individual members with 
specific interests in Open World countries or thematic areas.
Open World Activities in 2015 and Plans for 2016
    In 2015, the Open World program included 14 participating countries 
and 864 emerging leaders who were able to benefit from direct exposure 
to the workings of the United States Congress; to understand the impact 
of legislation on all aspects of society; and to experience the robust 
and dynamic democracy and free market system that exists in the U.S. 
and makes up its form of Federalism. Also, of significance is that 
these Open World participants broke bread with their American 
counterparts, woke up in an American household and saw families/
children getting ready for work/school. They witnessed social activism, 
a free and aggressive media, and the incredible volunteerism that makes 
up this great country.
    Following is a country by country review of the 14 countries that 
participated in Open World in 2015 and for which programming is planned 
for 2016. Open World is also planning programs in 2016 in support of 
the House Democracy Partnership, and has expanded its potential 
participating countries by 12 additional countries.\2\
---------------------------------------------------------------------------
    \2\ Afghanistan, Colombia, Haiti, Indonesia, Iraq, Kenya, Lebanon, 
Liberia, Macedonia, Pakistan, Peru, Timor-Leste.
---------------------------------------------------------------------------
    Russia.--Open World continues to implement one of the last 
remaining exchange opportunities in Russia. It has been able to operate 
effectively in Russia because Open World is outside the realm of 
executive branch politics and widely accepted by the Russian people. 
While Open World has had to limit its capacity in Russia due to budget 
constraints and limitations on the kind of delegates we can bring due 
to a Russian law and U.S. policy that regulates the travel of Russian 
Government officials/civil servants, the demand for the Open World 
program in Russia could easily accommodate another one hundred 
travelers or more. At this critical time in U.S.-Russia relations, with 
a virtual shutdown of technical assistance programs, western donor 
operations, and many bi- and multi-lateral opportunities for the 
Russian people to interact with their colleagues in open and free 
forums, Open World has proven to provide critical access to reform 
minded citizens. Even those that are somewhat hardened are still 
willing to listen and see for themselves what is available and 
attainable in an open, transparent and democratic society with free 
markets, a fiercely independent media, and a legal system that provides 
a level playing field to its citizens and to foreigners.

        Dan Nolan, Petrozavodsk Committee Chair in Duluth, Minnesota, 
        noted the importance of continuing a close relationship with 
        our friends and colleagues in Petrozavodsk at a time when they 
        feel very isolated due to foreign sanctions. ``The work we have 
        accomplished together in the past few years in the areas of 
        reducing child abuse and domestic violence is too important to 
        be sidelined by political differences,'' he stated. ``Now, more 
        than ever, we must work to stay connected.''

    In 2015, Open World fielded 264 Russian participants from a 
majority of its 83 regions. The 2016 Russian cohort is expected to be 
some 240 travelers. The delegates represent all of Russia from the 
European land mass, to the rough and beautiful North Caucasus, to the 
Eurasian Steppe, and the enormous open spaces of Siberia and the 
Russian Far East and North. Much of our Russian programming is aimed at 
fostering existing partnerships, such as sister city relationships or 
partner Rotary clubs, and each year's program includes two large 
delegations from the Moscow School of Civic Education which is hosted 
by their American partner, Supporters of Civil Society in Russia. Open 
World's Russia programming is aimed at ``non-controversial'' themes and 
seeks to foster and strengthen partnerships and encourages self-
sustaining professional ties and connections. These themes include 
women entrepreneurs, ethnic minorities, environment, energy (and energy 
efficiency/alternate energy), agriculture, social issues, and some 
governance, media, and think tank programming.
    To illustrate the impact of Open World programming in Russia, it 
might be best for a delegate to speak about his impressions:

        As for the lessons of civil wisdom that I learned . . . they 
        certainly inspired and encouraged me! I always believed that 
        there must be a society that does not tolerate lies, does not 
        subdue memory, but fights for the facts and the right to one's 
        own opinion. . . Yes, it is a battle . . . yes, there are kinks 
        to work out. But this society is alive, real, strong!

    In addition, Open World Russia alumni are well-integrated into U.S. 
Embassy follow-on programming such as the Peer-to-Peer program, and 
Open World alumni and their American partners have been successful 
recipients of funding for their joint projects, such as the one between 
Syktyvkar State University \3\ and the Montana School for Deaf and 
Blind on a project called the ``The Socialization of Children with 
Visual Impairments in Special Education.'' The project includes site 
visits for Russian and American teachers and students, regular on-line 
video conferences, live streaming events, the development of manuals on 
the education of blind children, and competitions in both schools 
called ``Hello America'' and ``Hello Russia.''
---------------------------------------------------------------------------
    \3\ Syktyvkar is a city of nearly 1 million people that is the 
capital of the Komi republic in North-East European Plain.
---------------------------------------------------------------------------
    In summary, the words of an alumna who is a well-regarded 
journalist in the Northern Karelian republic say it best:

        My main impression from the trip is that we do have much in 
        common: similar emotions and problems, our aspiration to lead a 
        better life, our ethical values, and our desire to get to know 
        one another better. Every nation has something it can be proud 
        of, and this is what can and should be borrowed for the benefit 
        of your own country.

    This came from an article the alumna wrote following her program in 
Hendersonville, North Carolina titled ``My Discovery of America.''
    Ukraine.--In response to events in recent years in Ukraine, Open 
World has more than doubled its Ukraine program. The Center regularly 
works with U.S. Ambassador Pyatt and his team, and consults with the 
Congressional Ukrainian Caucus, the Senate Ukrainian Caucus, and other 
key stakeholders to design programming that is responsive to the needs 
of the Ukrainian people. Recent alumni are among a new generation of 
leadership that is working passionately to make Ukraine a country that 
is economically sound and that can readily integrate into the European 
Union and the Western community of free nations. Program themes over 
the past 2 years have included legislator to legislator programming, 
accountable governance, decentralization, anti-corruption, energy 
efficiency and alternate energy development, independent media, social 
issues (with concentration on Post Traumatic Stress Disorder and 
serving Internally Displaced Persons), agriculture, and education and 
innovation.
    In addition to having Open World alumni rising in the ranks, 
including those in the top leadership, Ukraine's leading reform bodies 
like the Committee on Preventing and Combating Corruption of the 
Parliament, the Ministry of Education, the Ministry of Youth and 
Sports, and many leading civil activists groups, Open World alumni are 
frequent recipients of competitive grants from the U.S. Mission in 
Ukraine so that they can build on the experiences they had while in the 
United States. Such projects have been focused on e-governance, 
promoting a positive image for Ukraine, and providing support for those 
disabled, those suffering PTSD, and internally displaced persons 
resulting from the aggression in the East and in Crimea. In the last 2 
years, Open World alumni have been awarded 17 grants from the U.S. 
Mission in Ukraine to conduct follow up activity based on their Open 
World program.
    Illustrating the courage and depth of Open World alumni in Ukraine, 
one alumnus who has risen in the ranks to Deputy Minister for Education 
widely publicized a recent attempt to bribe him by the Rector of a 
University that wanted him to cover up serious violations of academic 
ethics such as fake grading. The Deputy Minister reported this bribe 
attempt to the newly created National Anti-Corruption Bureau's 
Oversight Council, on which sits three additional Open World alumni. 
The Deputy Minister praised Open World and said:

        ``Participation in Open World provided me with the opportunity 
        to see first-hand how transparency in higher education works. 
        The program inspired me to fight against corruption in my work 
        and provided me with the tools and resolve to work to improve 
        my country. Open World alumni have risen to key positions in 
        the Ministry of Education and Science and are proud of their 
        work in reforming this crucial sector for Ukraine's successful 
        development.''

    Armenia.--A delegation of deputy mayors and a government media 
representative from southern Armenia were hosted in 2015 for a program 
concentrating on freedom of information law, transparency, and 
democratic governance with an emphasis on municipal government in an 
effort to promote capacity building, economic development, and 
democratic values in Southern Armenia.
    Three Armenian delegations are planned for 2016. A delegation of 
young judges will observe American law practices in Detroit, Michigan. 
Elected officials, government specialists, and NGO leaders will see how 
the United States has worked to build an inclusive society that 
respects and values Americans with disabilities in a social-inclusion 
program in Cambridge, Massachusetts. In anticipation of parliamentary 
elections in 2017 and presidential elections in 2018, Open World will 
host Young Armenian political leaders from various parties to study 
youth's role in the U.S. elections and political/elections processes in 
Granada Hills, California.
    Azerbaijan.--In 2015, Open World brought three delegations of 
emerging leaders to collaborate with their American counterparts and to 
gain first-hand exposure to American democratic governance and the 
working of the free market. Farmers from Azerbaijan visited with 
agricultural enterprises in the State of Iowa, specialists dealing in 
the fight against trafficking in persons met with their counterparts in 
Pittsburgh, and specialists who work with internally displaced persons 
met with their counterparts in Buffalo, New York. In 2016, Open World 
plans to bring three more delegations from Azerbaijan. For one 
delegation, Open World programming will address that country's 
deteriorating civil rights situation by: bringing defense lawyers, 
legal experts, and representatives of the Azerbaijani Collegium of 
Advocates to meet with their American peers. Other programs will 
concentrate on the need for economic diversification in Azerbaijan 
through a program on entrepreneurship and tourism management, and the 
lack of practical experience in school management through a program 
focused on secondary and higher education administration in response to 
Azerbaijan's recently developed strategy for educational reform.
    Estonia.--Since 2013, Open World has hosted a delegation of 
Estonian judges and prosecutors each year through our judge to judge 
program in an effort to promote international judicial relations and 
best practices in the judicial systems of both of our countries. In 
2015, the Estonian delegation was hosted by U.S. District Judge Edmund 
A. Sargus, Jr. in Columbus, Ohio. The April 2016 Estonian delegation 
will be hosted in Raleigh, North Carolina by Judge Allyson K. Duncan of 
the United States Court of Appeals for the Fourth Circuit. Judge Duncan 
is also the Chair of the International Judicial Relations Committee of 
the Judicial Conference of the United States, Open World's key partner 
in its rule of law programming.
    Georgia.--Open World hosted seven delegations from Georgia in 2015. 
Their programs included such themes as legislature to legislature 
development, inter-ethnic cooperation, rule of law, municipal 
development and the use of public space, and higher education 
administration. One highlight of the 2015 program is that the Chicago 
host of the inter-ethnic cooperation program that took place in Chicago 
was able to receive U.S. Government funding to visit in Georgia with 
his 2014 religious tolerance and 2015 inter-ethnic cooperation 
delegations to follow up on their programming and establish long-
lasting ties. In 2016, Open World's Georgia program will feature 
legislature to legislature programming, role of civil society in 
promoting accountable governance, and inter-ethnic cooperation. Open 
World also intends to host a diverse group of young parliamentarians 
from Georgia in the Fall of 2016, following that country's 
Parliamentary elections.
    Kazakhstan.--Open World hosted seven delegations from Kazakhstan in 
2015, including programming in the themes of environmental protection, 
energy efficiency and green technologies, consumer protection, 
entrepreneurship, and mediation and arbitration. Looking ahead to 2016, 
Open World is planning to host another seven delegations. Themes 
include: entrepreneurship in small towns, makers paces, access to 
information/use of social media, building capacity in civil society, 
and nonproliferation. We also intend to bring a delegation of members 
of Parliament from Kazakhstan in program year 2016 once the planned 
March elections take place. The 2016 Makerspaces group will highlight 
sister city relations between the cities of Arvada, Colorado and 
Kyzylorda and the entrepreneurship program will highlight partner 
relations between Mauston, Wisconsin and Pavlodar. The relationship 
developed as a result of Open World between Mauston and Pavlodar has 
resulted in several self-funded follow-on visits from Wisconsin to 
Kazakhstan and from Kazakhstan to Wisconsin. For example, the host in 
Mauston is now the co-chair of the Leadership Wisconsin International 
Seminar that is going to Kazakhstan for their International Seminar in 
March of 2016.
    Kosovo.--Open World welcomed five delegations from Kosovo in 2015. 
The groups included Members of the Parliament of Kosovo, young women 
leaders, and specialists in agro-business and municipal development. 
Open World is planning to host at least four delegations in 2016. The 
planned themes are promoting/attracting investment, government 
transparency/access to public information, technology and e-government 
against corruption, and preventing domestic violence.
    Kyrgyzstan.--Open World hosted eight delegations from Kyrgyzstan in 
2015, including parliamentary staffers, women leaders in science and 
technology, legal/judicial professionals, and specialists in business 
mentoring, border security, and water management. Open World's 2016 
Kyrgyzstan program will consist of five delegations. These programs 
will include a delegation of Members of Parliament, and delegations 
looking at the role of local legislators/staff, civil society 
oversight/public finance, young entrepreneurs, and water irrigation/dry 
climate. Our April 2015 delegation in Colorado Springs, the sister city 
of Bishkek, was able to get first-hand experience with modern 
irrigation methods, crop production and water law issues, and the 
Helena, Montana-bound 2016 dry climate delegation will further explore 
these critical issues. Open World's ongoing relationship with the 
Parliament of Kyrgyzstan has resulted in that legislative body's 
sharing their experiences with the students of Kyrgyzstan by hosting 
students from cities and villages throughout the country in the 
Parliament. According to a Parliamentary staffer who is an alumnus 
``they took the idea from the U.S. Capitol staff on how to work with 
citizens and cooperate with the general population . . . These students 
represented no less than 20 ethnic origins.'' In addition, Open World 
parliamentary alumni in Kyrgyzstan have managed internships for Model 
Parliament students from throughout Kyrgyzstan.
    Moldova.--Open World hosted four Moldovan delegations in 2015. In 
April, one group observed the marketing of produce through producer 
organizations in San Francisco, while another learned best practices 
for combatting international crime in Reno, Nevada. In September, a 
delegation of nurses visited Greensboro, North Carolina and was able to 
gain useful knowledge and experience at various nursing schools, health 
centers and geriatric facilities to share with their colleagues in 
Moldova. Also, in September, a delegation of young analysts worked with 
their colleagues in San Diego to explore various methods of successful 
economic analyses. Open World currently has no plan to host delegations 
from Moldova in 2016 due to budget constraints and the cost of 
programming in that country.
    Mongolia.--In 2015, Open World hosted two delegations of judges 
from Mongolia. Open World has already hosted a delegation of members of 
Parliament from Mongolia early this year, and plans to host two more 
delegations of judges from Mongolia in 2016.
    Serbia.--Open World hosted 12 Serbian delegations in 2015, 
specializing in areas such as policy development, sustainable 
agriculture, media businesses and youth innovation. Open World plans to 
host two delegations of judges from Serbia in 2016, and has already 
hosted a delegation of members of the Serbian Parliament in January of 
this year.
    Tajikistan.--Eight Tajik delegations, specializing in areas such as 
e-governance and transparency, healthcare for women, domestic violence, 
youth empowerment, and legal defense advocacy, were hosted in 2015. 
Open World has already hosted one delegation of women entrepreneurs 
from Tajikistan in 2016, and plans to conduct programming for four more 
delegations in themes that include sports for at-risk youth, eco-
tourism, youth in civil society, and women in border security.
    Turkmenistan.--With great support from the U.S. Mission in 
Turkmenistan, Open World was able to host a delegation from 
Turkmenistan in 2015. The delegation consisted of specialists in 
tourism management and was hosted in St. Louis. Open World plans to 
host at least three delegations from Turkmenistan in 2016 in the themes 
of water management, earthquake/fire management, and library services.
    While the above country program descriptions provide an overview of 
the incredible activity and goodwill fostered by Open World, below are 
some examples of the type of results and feedback that we continually 
receive from our constituent hosts and new friends and colleagues form 
our participating countries throughout Eurasia.
    In February 2015, an Open World delegation was hosted by Virginia 
Commonwealth University. During their visit, the group visited the 
General Assembly, a variety of government agencies and public policy 
organizations, cultural sites such as the Virginia Museum of Fine Arts 
and Colonial Williamsburg, and a local TV news station covering the 
Super Tuesday presidential primary elections. The program is valuable 
because everyone--both the Ukrainians and the Americans--learn from the 
experience, said hosting committee member Jeff South, an associate 
professor of journalism and director of undergraduate studies at the 
Robertson School. ``As a member of the hosting committee, I personally 
learn more than I teach from the Open World visitors,'' he said. ``I 
learn about other models of government and that there are many things 
we could do to improve our democracy in Virginia and the rest of 
America. We also see the many things we have in common with people in 
Eastern Europe--a commitment to an open government that truly serves 
the people.''
Budget Request Summary
    Open World spends its appropriation in two categories: Direct 
Program Costs and Administration Costs. Direct Program Costs includes: 
a logistical coordinator contract; grants to host organizations across 
the United States; Memoranda of Agreements with U.S. embassies in most 
of Open World countries; and the salary and benefits of the Center's DC 
and Moscow staff.

    The Center's fiscal year 2017 budget request breaks down as 
follows:

    A. Direct Program--$ 5,550,000

 
 
 
1. Logistical Contract........................    1,900,000
2. Grants/Other Hosting Costs.................    2,300,000
3. Embassy Agreements.........................      875,000
4. Salary/Benefits (Program staff)............      475,000
 

    The logistical services contract with a Washington-based NGO is the 
single largest expenditure at Open World. This contractor is 
responsible for coordinating the delegate nomination and vetting 
process and is tasked with obtaining visas and other travel documents; 
arranging and purchasing airfare; planning and executing the 2-day DC 
orientation, and coordinating with grantees and placing delegates in 
American host cities, among a host of other duties.
    Grants/Other Hosting Costs refer to national and local hosting 
organizations (such as Rotary Club, Friendship Force International, and 
community colleges) that plan and execute an 8-day local program for 
each delegation.

    B. Administration--$ 388,000

 
 
 
1. Salary/Benefits (Admin Staff)..............      275,000
2. Other Admin Operating Expenses.............      113,000
 

    The salaries/benefits of the Executive Director, the Deputy 
Executive Director, and the Outreach Officers are included in this 
category. It also includes an interagency agreement with the Library of 
Congress for infrastructure services, small contracts for professional 
services, postage, telephone, cell phones, and office supplies and 
materials. The Center benefits from lower administrative costs due to 
its physical location in the Library of Congress. Finally, agreements 
with other agencies for infrastructure services or for printing, 
webhosting, or graphic design are included here.

TOTAL BUDGET: $5,938,000 \4\
---------------------------------------------------------------------------
    \4\ The amount over $5.8 million shown here will be covered by 
earned revenue, donations and other offsets.

    The good news is that the Center has learned the art of doing more 
with less. While working under shrinking budgets has its challenges, 
the Center's response to this series of cuts is to work harder at 
finding savings and increasing cost shares. As an example, 2 years ago, 
the Center changed the way that interpretation costs are covered in the 
program which yielded us an astonishing estimated $250,000 in savings 
due to the elimination of any indirect cost being applied to the total 
as well as more efficient handling of the interpretation pool. Another 
important source of savings was in engaging with the U.S. embassies of 
Open World countries as much as possible. This alone realized a savings 
of 30-40 percent of the cost of a single delegate's participation in 
the Open World program.
    Finally, for every dollar in grants awarded, the Center receives 
matching cost shares dollar for dollar, with the 2015 estimate looking 
like it will hit $2.3 million. Meanwhile, to emphasize our successful 
efforts from working closely with each grantee to arrive at the fairest 
budget possible, the demand for Open World delegations remains at a 
high of four slots requested for every one slot available.
    With careful management we can proudly claim that for every 
appropriated dollar received, we have been able to leverage that dollar 
by an additional 35 percent which makes it possible to continue 
providing dynamic, current and relevant, and high quality programming 
this fiscal year.
Closing Remarks
    Open World offers Congress an extraordinary ``bang for the buck'' 
as well as deep commitment to being a model agency dedicated to the 
most efficient and cost-effective use of its resources. The Center's 
overhead rate has remained a steady 7 percent in large part due to the 
steadfast pursuit of savings and cost shares while maintaining diligent 
fiscal stewardship. All the while the Center never compromises program 
quality.
    Open World employs best practices in an effort to achieve the most 
cost-efficient and effective means to accomplish our mission. Early on, 
Open World established internal controls to ensure program quality, 
including pre- and post-program report follow-up, weekly 
teleconferencing with our logistical contractor, and regular contact 
with grantees and local hosts. Open World also uses a zero-based budget 
approach to every contract, every grant budget, as well as our annual 
operating budget.
    Furthermore, Open World actively seeks cost-sharing partnerships 
with other government initiatives whose missions complement ours. The 
U.S. Agency for International Development, the Department of Energy, 
the Department of State, the National Endowment for the Arts, and the 
U.S. embassies in Armenia, Kosovo, Mongolia, Serbia, Tajikistan, 
Turkmenistan, Ukraine, and Uzbekistan have all joined with the Open 
World Leadership Center in directly funding a number of delegations.
    Funding at the requested level of $5.8 million will enable Open 
World to fully respond to congressional interests in the region and 
beyond while continuing our proven mission of hosting young political 
and civic leaders who return home to launch projects and programs in 
cooperation with their American counterparts and hosts. The Board of 
Trustees believes that maintaining a robust grassroots-based Open World 
presence in the region is necessary and important for future U.S. 
relations in these politically significant countries.

                 OFFICE OF THE SECRETARY OF THE SENATE

     Prepared Statement of Julie E. Adams, Secretary of the Senate
    Since 1789, the Secretary of the Senate has been tasked with the 
legislative, financial and administrative duties of the U.S. Senate. In 
the past year I have been proud to serve alongside the hundreds of men 
and women that comprise the Office of the Secretary who ensure we 
fulfill our mission. They are dedicated public servants who continually 
strive to improve systems and processes, better the institution, and 
preserve the rich history of this uniquely American legislative body.
    I would like to thank the subcommittee for their ongoing support of 
the Office of the Secretary of the Senate's budget and mandated 
systems. For fiscal year 2017, I am requesting a budget of $31,589,000. 
This request includes $25,339,000 in salary costs and $6,250,000 for 
the operating budget of the Office of the Secretary. The salary budget 
represents an increase in $567,000 over the fiscal year 2016 budget as 
a result of the costs associated with a potential cost of living 
adjustment. The operating budget remains flat at $6,250,000 of which 
$4,350,000 is firewalled for the administration of the Senate 
Information Services (SIS) Program that was assumed by this Office in 
2011 and has remained flat.
    In addition, I am requesting $4,000,000 in no year funds for the 
second phase of a 6-year project to modernize the Senate Disbursing 
Office's Financial Management Information System, also known as 
``FMIS.'' I appreciate the subcommittee's support last year to initiate 
the update of this mandated system.
    I am proud to report that the FMIS modernization project is 
underway. Due to the scope of the project, a Financial System Program 
Office has been established within the Disbursing Office to oversee and 
manage the effort to ensure the project remains on schedule and within 
the budget established for the project. All of the project staff will 
be hired and in place by mid-April. Just last week, a purchase order 
was initiated for software that will be used for the first phases of 
the budget and reporting modernization. And by the end of May, early 
June, the Indefinite Delivery Indefinite Quantity (IDIQ) contract and 
initial task orders will be awarded. The IDIQ will take the project 
about half way through the modernization. This was done so the Program 
Office can consider technology market changes that are expected to 
occur during the later phases of the modernization project.
    The second phase of the financial system modernization, scheduled 
for fiscal year 2017 will continue the rollout of the modernized budget 
and reporting and will also initiate the general ledger modernization.
    The Financial System Program Office will work in collaboration with 
Sergeant at Arms (SAA) functional and technical staff, as well as 
representatives from financial stakeholder groups, including Senators' 
offices, committees, the Committee on Rules and Administration audit 
staff, and Disbursing Office accounting staff throughout the 
modernization to ensure that, (1) the financial applications are 
supportable and maintainable in both the near and long term (2) the 
modernized system fully meets Senate user requirements and (3) end user 
impacts are minimized throughout the implementation period.
    In addition to the FMIS modernization project, the Disbursing 
Office has also been working on the payroll self-service project. The 
self-service project will allow members and staff to view their 
paystubs electronically as well as tax, payroll and benefits 
information. It is currently in a pilot phase, if no problems or issues 
are reported, it will be rolled out to the rest of the Senate within 
the year.
    I would now like to highlight some of our other departments' 
accomplishments of the past year and a few of their ongoing projects.
    Last year was a busy year for the legislative staff. With the 
majority changing for the first time since the 110th Congress, time was 
spent working with Senators and staff either new to the Senate or 
unfamiliar with the roles and responsibilities of the majority. The 
legislative schedule was also rigorous; a small sample of the work 
completed during the 1st Session of the 114th Congress would include 
the processing of 2,943 submitted amendments, 289 reports of 
committees, 339 roll call votes taken and the incorporation of 405 
amendments into measures considered by the Senate. Additionally, the 
Senate confirmed 17,578 executive nominations during the session.
    I am proud of the loyal legislative team. When the Senate is in 
session, they work long hours and are some of the last to leave the 
office. I was surprised to learn that when the Senate recesses or 
adjourns for the day, a handful of legislative staff have up to three 
hours of work remaining. These long hours ensure that the Senate's 
daily proceedings are properly transmitted to the Government Publishing 
Office (GPO). The Senate Record is published in paperback form and 
online in the Congressional Record and is available to the public the 
next business day.
    Something else that I became aware of during my first year on the 
job was the lack of remaining storage for legislative archives. Only 
1,000 cubic feet remained available for the accessioning of new records 
from the Senate and House. I want to thank the Appropriations Committee 
for recognizing the need for additional storage and for appropriating 
funds to begin renovations of a suitable space at GPO.
    GPO is a real partner of the Secretary's Office--from printing and 
publishing to our new archive storage solution--I am proud of the 
teamwork between the two organizations.
    Teamwork within departments in the Secretary's Office is also 
strong. The Stationery Room and Disbursing Office continue to work with 
member offices wishing to establish accounts for the online flag 
ordering system using Pay.gov. Sixty-six offices are now offering this 
payment option and seven more member offices are in the beginning 
stages of the program.
    The Office of Web Technology is spearheading the redesign effort to 
modernize the www.senate.gov Web site, but it is also a collaborative 
effort. The Senate Web site content is maintained by seven departments 
of the Secretary's Office and three departments of the SAA. The new 
design will implement the best practices established over the last 
several years and take advantage of the advances in Web technology that 
will make the site more useable to all audiences, including those 
accessing it from mobile devices. The redesign is at the midway point 
and the hope is that it will go live by the end of the year.
    I am proud of the relationships Secretary Office departments 
continue to build with respective departments within the SAA and 
Architect of the Capitol, from procurement contracts to continuity of 
government planning and everything in between. It is essential for the 
Senate support organizations to work together seamlessly and the 
Secretary's Office will continue to make this a priority.
    Serving in this role for the last year has been a true privilege. I 
look forward to the busy year ahead and I appreciate the subcommittee's 
support for the Office of the Secretary. Thank you.

    [Clerk's note: The submitted fiscal year 2017 budget request from 
the Office of the Secretary of the Senate follows:]
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                             BUDGET REQUEST

    I would first like to thank the subcommittee for their ongoing 
support of the Office of the Secretary of the Senate's budget and 
mandated systems. For fiscal year 2017, I am requesting a budget of 
$31,589,000. The request includes $25,339,000 in salary costs and 
$6,250,000 for the operating budget of the Office of the Secretary. The 
salary budget represents an increase of $567,000 over the fiscal year 
2016 budget as a result of the costs associated with a potential cost 
of living adjustment. The operating budget of the Office of the 
Secretary remains flat at $6,250,000, of which $4,350,000 is for the 
administration of the Senate Information Services (SIS) Program that 
was assumed by this office in 2011 and has not changed.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount          Budget
                                                                     available       estimates
                              Item                                  fiscal year     fiscal year     Difference
                                                                       2016            2017
----------------------------------------------------------------------------------------------------------------
Department operating budget:
    Executive office............................................      $  500,000      $  500,000  ..............
    Administrative services.....................................       1,251,600       1,251,600  ..............
    Senate Information Service (SIS)............................       4,350,000       4,350,000  ..............
    Legislative services........................................         148,400         148,400  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................       6,250,000       6,250,000  ..............
----------------------------------------------------------------------------------------------------------------

    In addition, I am requesting $4,000,000 in no year funds for the 
modernization of one of two critical Senate systems, the Financial 
Management Information System (FMIS). This is the second year of a 
planned 6-year phased project. The flexibility of no year funding 
continues to be important to the success of the modernization project.

                             PROJECT REQUEST
------------------------------------------------------------------------
                                 Fiscal year   Fiscal year
             Item                   2016          2017       Difference
------------------------------------------------------------------------
FMIS Modernization Project....    $2,500,000    $4,000,000    $1,500,000
------------------------------------------------------------------------

  financial management information system (fmis) modernization project
    The Senate's administrative financial system, FMIS, is a collection 
of financial applications used by Senate offices to submit and pay 
bills, manage office funds, and report to both internal offices and 
external agencies. Implemented over 16 years ago, FMIS utilizes a 
complex architecture, increasingly expensive mainframe technologies, 
and a variety of software that can only be enhanced through costly and 
time consuming custom development. Today, FMIS is used by approximately 
140 Senate offices and has over 4,500 active users.
    In 2015, the Disbursing Office worked to maintain and ensure the 
continuation of FMIS. However, efforts have been outpaced by newer 
versions of operating systems, browsers and other end user software, 
which are not compatible with current FMIS applications. As a result, 
the Disbursing Office has initiated a financial system modernization 
project that will:

  --Improve financial system supportability and flexibility;
  --Address business requirements not met by the existing system; and
  --Continue to bring the Senate closer to an integrated, auditable, 
        paperless financial system.

    The first phase of the financial system modernization began this 
year and includes two major activities:

  --Budget Modernization.--This replaces multiple budget applications 
        and manual processes, including the existing payroll PeopleSoft 
        Enterprise Performance Management (EPM) module, which Oracle 
        plans to retire in April 2018, with a single Senate-wide modern 
        budget application used by many Federal agencies.
  --Reporting Modernization.--This streamlines and transitions 
        financial reports to a consolidated data warehouse to minimize 
        end user impacts during the financial system modernization.

    The second phase of the financial system modernization, scheduled 
for fiscal year 2017 will continue the implementation and roll out of 
the modernized budget and reporting and will include the following 
additional major activity:

  --General Ledger Modernization.--This replaces the mainframe-based 
        general ledger system with a commercial software package 
        consistent with all current Federal financial standards and 
        reporting requirements.

    The FMIS Business Case outlines the full scope of the financial 
system modernization project. The major phases and timeline of the 
proposed modernization effort are outlined in the table below:

----------------------------------------------------------------------------------------------------------------
                  Date                           Business Area            Modernization Approach and Rationale
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2016-Fiscal Year 2017.......  Budget.....................  Replace multiple existing budget
                                                                        applications and manual processes with a
                                                                        commercial software package widely used
                                                                        by Federal agencies to:
                                                                         --Allow for more efficient and
                                                                        effective budget planning and budget
                                                                        execution tracking;
                                                                         --Enable ``what-if'' budget analyses at
                                                                        the Senate and individual office levels;
                                                                        and
                                                                         --Facilitate direct integration between
                                                                        the payroll and financial system.
 
Fiscal Year 2016-Fiscal Year 2021.......  Reporting..................  Streamline and modernize the reporting
                                                                        infrastructure to prepare for and
                                                                        minimize impacts of the financial system
                                                                        modernization, and:
                                                                         --Reduce the volume of reporting data;
                                                                         --Eliminate unused and redundant
                                                                        reports;
                                                                         --Consolidate numerous, disparate
                                                                        report processes;
                                                                         --Ensure the consistency and accuracy
                                                                        of historic data; and
                                                                         --Provide greater flexibility for users
                                                                        to customize the data they view and
                                                                        receive.
 
Fiscal Year 2017-Fiscal Year 2018.......  Accounting.................  Replace the mainframe-based general
                                                                        ledger system with a commercial software
                                                                        package, which will:
                                                                         --Allow the Senate to retire the
                                                                        expensive and increasingly difficult to
                                                                        support mainframe hardware and software;
                                                                         --Implement a modern general ledger
                                                                        which is consistent with all current
                                                                        Federal financial standards and
                                                                        reporting requirements; and
                                                                         --Enhance the Senate's ability to
                                                                        maintain the core component of the
                                                                        financial system and the source of the
                                                                        statutory semi-annual Report of the
                                                                        Secretary of the Senate.
 
Fiscal Year 2018-Fiscal Year 2019.......  Procurement to Payment.....  Replace the highly customized procurement
                                                                        to payment applications with commercial
                                                                        software, where possible, subject to a
                                                                        thorough alternatives analysis. This
                                                                        will allow the Senate to:
                                                                         --Continue to meet unique Senate
                                                                        business needs while also addressing a
                                                                        number of business requirements not
                                                                        currently met by the existing
                                                                        applications;
                                                                         --Enhance the Senate's ability to
                                                                        administer and support financial system
                                                                        applications;
                                                                         --Enable more rapid deployment of user-
                                                                        requested changes; and
                                                                         --Facilitate tighter integration of all
                                                                        procurement to payment applications to
                                                                        enhance Senate financial statement
                                                                        production.
 
Fiscal Year 2019........................  Data Sharing...............  Automate interfaces with outside
                                                                        agencies, such as the U.S. Treasury, to:
                                                                         --Reduce errors in Senate reporting;
                                                                        and
                                                                         --Eliminate the manual effort required
                                                                        to support daily and monthly external
                                                                        reporting.
 
Fiscal Year 2019-Fiscal Year 2021.......  Asset Management...........  Replace the existing Asset Management
                                                                        application with a commercial software
                                                                        module that will:
                                                                         --Enable direct integration with the
                                                                        financial system; and
                                                                         --Eliminate redundant processes and
                                                                        data, increasing the efficiency and
                                                                        accuracy of the Senate's asset tracking.
 
Fiscal Year 2019-Fiscal Year 2021.......  Archival Tools.............  Implement data archival tools to:
                                                                         --Reduce the costs and potential
                                                                        application performance issues
                                                                        associated with maintaining large
                                                                        volumes of financial data; and
                                                                         --Ensure that all relevant data is
                                                                        archived together and may be restored
                                                                        together as needed to support Senate
                                                                        financial operations.
----------------------------------------------------------------------------------------------------------------

    The table below includes the funding received for fiscal year 2016, 
the request for fiscal year 2017, and future funding required for 
software and support services.

----------------------------------------------------------------------------------------------------------------
                                        2016
              Funding                 (funded)     2017       2018       2019       2020       2021      Total
----------------------------------------------------------------------------------------------------------------
Implementation/Acquisition.........      2.5M         4M       3.5M         3M       2.5M       2.5M        18M
----------------------------------------------------------------------------------------------------------------

    Due to the scope and complexity of this project and best practices 
for system implementation, a Financial System Program Office has been 
established within the Disbursing Office to oversee and manage the 
effort to ensure the project remains on schedule and within the 
established budget. The Financial System Program Office will work in 
collaboration with Sergeant at Arms (SAA) functional and technical 
staff, as well as representatives from financial system stakeholder 
groups, including Senators' offices, committees, the Committee on Rules 
and Administration audit staff, and Disbursing accounts payable (A/P) 
and accounting staff throughout the modernization effort to ensure 
that: (1) financial applications are supportable and maintainable in 
both the near and long term, (2) the modernized system fully meets 
Senate user requirements, and (3) end user impacts are minimized 
throughout the implementation period.
                     implementing mandated systems
    Two systems critical to our operation are mandated by law, the 
Financial Management Information System (FMIS) and the Legislative 
Information System (LIS). The following highlights recent developments:
 update on the status of financial management information system (fmis)
    During calendar year 2015, Disbursing implemented the following 
releases to enhance application security in light of recent Office of 
Personnel Management (OPM) security breaches and to replace outdated 
financial system components:

  --FMIS 13.4-FMIS 13.4.1, March through June 2015--modernized the 
        office homepage, enhanced audit performance reporting for 
        Disbursing A/P, enhanced application security, transitioned SAA 
        document printing functions to standardize document printing 
        and eliminated an outdated, difficult to support printing 
        technology; and
  --FMIS 13.5, October 2015--enhanced imaging application security and 
        corrected user reported imaging defects to facilitate continued 
        Senate-wide rollout of paperless workflow.

    Work also continued related to document imaging and electronic 
signatures in FMIS, in the following phases:

  --Phase 1: imaging-only pilot (completed in 2011);
  --Phase 2: office imaging and signatures pilot (completed in 2012);
  --Phase 3: planning and development to support imaging and signatures 
        for SAA and staffer users, including:

    --Imaging to support staffers creating Expense Summary Reports 
            (ESR's) (completed development in 2014; pilot initiated in 
            November 2015), and
    --Imaging to support invoices and associated vouchers for SAA and 
            the Secretary (completed development in 2014; pilot planned 
            for Summer 2016).

  --Completed rollout to 60 offices, Committee on Rules and 
        Administration audit staff, and Disbursing's A/P and accounting 
        staff through 2015.

    Additionally, Disbursing collaborated with the SAA to implement the 
following changes to the Senate Payroll System (SPS):

  --Upgraded PeopleSoft to version 9.2
  --Successfully piloted the first phase of payroll self-service and,
  --Implemented the new reporting requirements established by the 
        Affordable Care Act (ACA).

    During the remainder of fiscal year 2016 and beyond, the following 
FMIS activities are anticipated:

  --Imaging and digital signatures--Continue with Senate-wide rollout 
        of imaging and digital signatures for the remaining Member 
        offices and committees;
  --Implement the two FMIS releases rescheduled due to necessary 
        security and technology enhancements:

    --FMIS 14.1 (planned for Summer 2016)--Modernization of voucher 
            creation and review functions used by Member offices, 
            committees, Leadership, the Office of the Secretary, SAA, 
            Committee on Rules and Administration, and the Disbursing 
            Office to address user requested changes, enhance 
            supportability and ensure compatibility with modern 
            browsers; and
    --FMIS 14.2 (planned for Winter 2016)--Modernization of additional 
            document types, such as requisitions, purchase orders, 
            invoices and receiving reports used by the Office of the 
            Secretary and the SAA to address user requested changes, 
            enhance supportability and ensure compatibility with modern 
            browsers;

  --Coordinate testing of Treasury Account Symbol (TAS) and Business 
        Event Type Code (BETC) reporting with Treasury;
  --Continue to work with the SAA technical staff and SPS Contracting 
        Office Technical Representative (COTR) to complete the expanded 
        pilot and full roll-out of the first phase of Senate Payroll 
        System self-service; and
  --Conduct an expanded multi-day Continuity of Operations exercise 
        that will include 3 full days of financial system activity.
    update on the status of the legislative information system (lis)
    The Legislative Information System (LIS) is a mandated system (2 
U.S.C. 6577) that provides desktop access to the content and status of 
legislative information and supporting documents. In addition, pursuant 
to 2 U.S.C. 181, a program was established to provide for the widest 
possible exchange of information among legislative branch agencies. The 
long-range goal of the LIS Project Office is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. The project is 
currently focused on a Senate-wide implementation and transition to a 
standard system for the authoring and exchange of legislative documents 
that will greatly enhance the availability and re-use of legislative 
documents within the Senate and with other legislative branch agencies.
    Extensible Markup Language (XML) has been accepted as the primary 
data standard to use for the exchange of legislative documents and 
information. Following the implementation of the LIS, the LIS Project 
Office shifted its focus to the data standards program and established 
the LIS Augmentation Project (LISAP). The overarching goal of the LISAP 
is to provide a Senate-wide implementation and transition to XML for 
the authoring and exchange of legislative documents.
    The LIS Project Office provided support to the Senate Legislative 
Counsel (SLC); the Committee on Appropriations; the Committee on 
Commerce, Science, and Transportation; and the Senate Enrolling Clerk 
in their use of the XML authoring application, Legislative Editing in 
XML Application (LEXA) for drafting, engrossing, and enrolling. With 
the addition of the Commerce Committee drafters, all Senate measures 
(bills, resolutions, and amendments) are produced in XML. In addition, 
the Government Publishing Office (GPO) uses LEXA to complete measures 
for printing. Several new features and fixes were added in LEXA 
releases to improve the drafting process.
    The LIS Project Office has been working with staff from GPO and the 
Legislative Computer Systems (LCS) in the Office of the Clerk of the 
House to create and print committee reports in XML, and the initial 
LEXA committee report application was released to the Commerce 
Committee in 2013. The LIS Project Office has provided several updates 
and enhancements for the Commerce Committee and is currently working 
with the Committee on Appropriations. Production of committee reports 
in XML by the Appropriations Committee is expected by Summer 2016.
    Other enhancements to LEXA in the past year include two new 
features that help the SLC drafters check their work. One new feature 
creates a table of sections affected in a bill draft, and the other 
feature compiles a table of contents across multiple separate files 
that make up a large bill draft. Improvements were made to copy/paste 
from non-XML documents into LEXA to create valid XML structure and 
translate special characters. A template was added to LEXA to create 
the Joint Explanatory Statement that accompanies a conference report, 
and work is underway to create conference report signature sheets in 
LEXA.
    Two other group projects with GPO and LCS include participants from 
the Law Revision Counsel and the Senate and House Legislative Counsels. 
The multi-phase project for the Law Revision Counsel will result in 
applications to convert, edit, and maintain the U.S. Code in an XML 
format. The Legislative Counsel offices collaborate on maintaining and 
using the compilations of existing law in an XML format. The LIS 
Project Office and LCS also monitor and participate in GPO's project to 
replace Microcomp with a new composition system that can directly 
ingest XML data without having to convert it to another format before 
printing.
    The LIS Project Office will continue to support all Senate offices 
using LEXA and will work with the House, GPO, and the Library of 
Congress (LOC) on projects and issues that impact the legislative 
process and data standards for exchange. The office will produce 
enhancements to LEXA and seek out new technologies to improve the 
production of legislative documents.

                          LEGISLATIVE SERVICES

    The Legislative operations of the Office of the Secretary provide 
support essential to Senators in carrying out their daily chamber 
activities as well as the constitutional responsibilities of the 
Senate. Legislative Services consists of the following departments: 
Bill Clerk, Captioning Services, Daily Digest, Enrolling Clerk, 
Executive Clerk, Journal Clerk, Legislative Clerk, Official Reporters 
of Debates and Parliamentarian.
    The Office of the Secretary maintains a positive working 
relationship with the Government Publishing Office (GPO). GPO continues 
to respond in a timely manner to the Secretary's requests, through the 
Legislative staff, for the printing of bills and reports, including the 
expedited printing of priority matters for the Senate chamber.
                               bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Office keeps this information in 
handwritten files and ledgers and also enters it into the Senate's 
automated retrieval system so it is available to all House and Senate 
offices via the Legislative Information System (LIS), Congress.gov, and 
the Amendment Tracking System (ATS). The Bill Clerk records actions of 
the Senate with regard to bills, resolutions, reports, amendments, 
cosponsors, public law numbers, and recorded votes.
    The Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this office comes directly from the Senate 
floor in written form within moments of the action involved, so the 
Office of the Bill Clerk is generally regarded as the most timely and 
most accurate source of legislative information.
    The Office of the Bill Clerk has coordinated with the Office of the 
Executive Clerk and the Office of Web Technology to provide input 
regarding Senate data on Congress.gov through regular meetings with the 
Library of Congress (LOC). The Office maintains communication with the 
Secretary's legislative offices, floor staff, and the Senate Library in 
facilitating input on Congress.gov, predominantly in the areas of 
legislation, committee reports, and the Congressional Record.
                          captioning services
    The Office of Captioning Services provides real-time closed 
captioning of Senate floor proceedings for individuals who are deaf or 
hard-of-hearing and unofficial electronic transcripts of Senate floor 
proceedings to Senate offices on Webster.
    Captioning Services is comprised of the most seasoned and respected 
captioners in the industry and strives to provide the highest quality 
closed captions. The overall accuracy average rate for the Office has 
remained above 99 percent for the past 22 years. Overall caption 
quality is monitored through daily translation data reports, monitoring 
of captions in real-time, and review of caption files on Webster.
    The real-time searchable Closed Caption Log database and VideoVault 
browser, available to Senate offices on Webster, continues to be an 
invaluable tool for the entire Senate community. Legislative floor 
staff, Cloakroom staff, and Member offices in particular continue to 
depend upon its availability, reliability, and contents to help them in 
the performance of their everyday duties.
                              daily digest
    The Office of the Daily Digest is responsible for publication of a 
brief, concise and easy-to-read accounting of all official actions 
taken by the Senate in the Congressional Record section known as the 
Daily Digest. The Office compiles an accounting of all meetings of 
Senate committees, subcommittees, joint committees and committees of 
conference.
    The Office enters all Senate and joint committee scheduling data 
into the Senate's Web-based scheduling application system. Committee 
scheduling information is also prepared for publication in the Daily 
Digest in three formats: Day-Ahead Schedule; Congressional Program for 
the Week Ahead; and the extended schedule which appears in the 
Extensions of Remarks section of the Congressional Record. The Office 
also enters all official actions taken by Senate committees on 
legislation, nominations, and treaties into the Senate's Legislative 
Information System (LIS).
    The Office publishes a listing of all legislation which has become 
public law, as well as a `Resume of Congressional Activity' which 
includes all Congressional statistical information, including days and 
time in session; measures introduced, reported and passed; and roll 
call votes. The `Resume' is published on the first legislative day of 
each month in the Daily Digest. The Office also assists the House Daily 
Digest Editor in the preparation of a history of public bills enacted 
into law and a final resume of congressional statistical activity at 
the end of each session of Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record, on the Digest's 
Web site on Senate.gov, and in LIS. Meeting outcomes are also published 
by the Daily Digest in the Congressional Record each day and are 
continuously updated on the Web site.
    The Office of the Daily Digest publishes a `20-Year Comparison of 
Senate Legislative Activity' which can be found at: http://
www.senate.gov/reference/resources/pdf/yearlycomparison.pdf.
                            enrolling clerk
    The Office of the Enrolling Clerk prepares, proofreads, corrects, 
inputs amendments and prints all legislation passed by the Senate prior 
to its transmittal to the House of Representatives, the National 
Archives, the White House, the United States Claims Court, and the 
Secretary of State. Electronic files of all measures engrossed and 
enrolled in the Senate are transmitted daily by the Enrolling Clerk to 
GPO for overnight distribution and public Web access.
    The Office of the Enrolling Clerk keeps the original official 
copies of bills, resolutions, and appointments from the Senate floor 
through the end of each Congress.
                            executive clerk
    The Office of the Executive Clerk prepares for publication the 
Journal of the Executive Proceedings of the Senate, a record of the 
Senate's actions during executive sessions.
    The Executive Clerk receives, assigns numbers to, and processes the 
nominations, treaties, executive communications, petitions or 
memorials, and presidential messages sent to the Senate. As part of 
this processing, the Executive Clerk enters each of these in LIS along 
with the Senate's actions on each.
    The Office also prepares the Executive Calendar daily when there 
are nominations, treaties, or resolutions related to treaties before 
the Senate. The Executive Clerk also prepares all nomination and treaty 
resolutions for transmittal to the President of the United States.
    The Office has been working in conjunction with the Office of the 
Bill Clerk and the Office of Web Technology to provide input to the LOC 
related to the inclusion of nominations, treaties, executive 
communications, presidential messages, and petitions or memorials on 
Congress.gov.
                             journal clerk
    The Office of the Journal Clerk takes notes of the daily 
legislative proceedings of the Senate in the ``Minute Book'' and 
prepares a history of bills and resolutions for the printed Journal of 
the Proceedings of the Senate, or Senate Journal, as required by 
Article I, Section V of the U.S. Constitution. The content of the 
Senate Journal is governed by Senate Rule IV, and is approved by the 
Senate on a daily basis.
    The Journal Clerk staff take 90-minute turns at the rostrum in the 
Senate Chamber, noting the following by hand for inclusion in the 
Minute Book: (i) all orders (entered into by the Senate through 
unanimous consent agreements), (ii) legislative messages received from 
the President of the United States, (iii) messages from the House of 
Representatives, (iv) legislative actions as taken by the Senate 
(including motions made by Senators, points of order raised, and roll 
call votes taken), (v) amendments submitted and proposed for 
consideration, (vi) bills and joint resolutions introduced, and (vii) 
concurrent and Senate resolutions as submitted. These notes of the 
proceedings are then compiled in electronic form for eventual 
publication of the Senate Journal at the end of each calendar year. 
Compilation is efficiently accomplished through utilization of the LIS 
Senate Journal Authoring System. In 2015, the Journal Clerk completed 
the production of the 877-page 2014 volume. It is anticipated that work 
on the 2015 volume will conclude by August 2016.
                           legislative clerk
    The Legislative Clerk sits at the rostrum in the Senate Chamber and 
reads aloud bills, amendments, the Senate Journal, presidential 
messages, and other such materials when so directed by the Presiding 
Officer of the Senate. The Legislative Clerk calls the roll of members 
to establish the presence of a quorum and to record and tally all 
``yea'' and ``nay'' votes. The Office of the Legislative Clerk prepares 
the Senate Calendar of Business, published each day the Senate is in 
session, and prepares additional publications relating to Senate class 
membership and committee and subcommittee assignments. The Office 
maintains the official copy of all measures pending before the Senate 
and incorporates any amendments that are agreed to. The Office retains 
custody of official messages received from the House of Representatives 
and conference reports awaiting action by the Senate. The Legislative 
Clerk is responsible for verifying the accuracy of information entered 
into LIS by the various offices of the Secretary.
    A small sample of the work completed during the first session of 
the 114th Congress includes the processing of 2,943 submitted 
amendments, 289 reports of committees, 339 roll call votes, and the 
incorporation of 405 amendments into measures considered by the Senate.
    The Office of the Legislative Clerk works closely with GPO, 
particularly the night production crew. For this session of Congress 
there were 169 separate issues of the Senate Calendar of Business 
published. Examples of daily edits consist of the ``Pending Business,'' 
``Unanimous Consent Agreements,'' ``General Orders,'' and ``Bills in 
Conference.''
    The Office continues to make its publications available online, 
which has lowered the need for printed copies and makes the materials 
more accessible.
                     official reporters of debates
    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and oversees the production 
of the Record to ensure its accuracy and consistency to Senate 
parliamentary rules and procedures.
    When the Senate is in session, the electronic and paper transcripts 
of the floor proceedings of the Senate begin to go GPO in the early 
evening. The last delivery occurs approximately three hours after the 
Senate adjourns or recesses for the day. The Congressional Record is 
published in paperback form and online and is available to the public 
the next business day.
    The Morning Business Editor is responsible for coordinating the 
printing of legislative and executive material in the Morning Business 
section of the Record and sits in the Senate Chamber, recording daily 
floor activity of the Senate for the Official Reporters of Debates.
                            parliamentarian
    The Office of the Parliamentarian continues to perform its 
essential institutional responsibilities to act as a neutral arbiter 
among all parties with an interest in the legislative process. These 
responsibilities include advising the Presiding Officer and Senators 
and their staff, as well as committee staff, House Members and their 
staffs, administration officials, the media, and members of the general 
public, on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, and unanimous 
consent agreements, as well as provisions of public law and the 
Constitution that affect the proceedings of the Senate.
    The Parliamentarians work in close cooperation with Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. A parliamentarian is always present on the Senate 
floor when the Senate is in session, ready to assist Presiding Officers 
in their official duties, as well as to assist any other Senator on 
procedural matters. The Parliamentarians work closely with the 
President pro tempore and the Vice President of the United States and 
their staffs when either performs duties as President of the Senate.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep time on the Senate 
floor when time is limited or controlled under the provisions of time 
agreements, statutes, or standing orders. They keep track of amendments 
offered to the legislation pending on the Senate floor, assess them for 
germaneness and other possible points of order, and review countless 
other amendments that are never offered in the same regard.
    The Office of the Parliamentarian is responsible for the referral 
of all legislation introduced in the Senate and all legislation 
received from the House, as well as all official communications 
received from the executive branch, memorials from State and local 
governments, and petitions from private citizens to the appropriate 
committees. In order to perform this responsibility, the 
Parliamentarians do extensive legal and legislative research. The 
Office works extensively with Senators and their staffs to advise them 
of the jurisdictional consequences of countless drafts of legislation, 
and evaluate the jurisdictional effect of proposed modifications in 
drafting.
    The Office of the Parliamentarian was heavily involved in the 
review of certificates of election and appointment for Senators in the 
class of 2015 and ensured that all necessary documents were received 
and in order for the opening of the new Congress. The parliamentarians 
participated in orientation for new Senators and staff and throughout 
the year conducted tutorials for individuals and groups on the rules 
and precedents of the Senate. In addition, the Parliamentarians 
continue to work on the Electronic Senate Precedents database that was 
launched at the end of 2014. Future chapters are likely to include: 
Table, Vetoes, Division of Pending Question, Closed Door Sessions, and 
Debate.

                          FINANCIAL OPERATIONS

                           disbursing office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective financial and human resource data management, 
information, and advice to the offices, Members, and employees of the 
Senate. The Disbursing Office manages the collection of information 
from all the accounting locations within the Senate to formulate and 
consolidate the agency level budget, disburse the payroll, pay the 
Senate's bills, and provide appropriate counseling and advice. The 
Disbursing Office collects information from Members and employees that 
is necessary to maintain and administer the retirement, health 
insurance, life insurance, and other central human resource programs, 
and provides responsive, personal attention to Members and employees on 
an unbiased and confidential basis. The Disbursing Office also manages 
the distribution of central financial and human resource information to 
the individual Member offices, committees, administrative offices, and 
leadership offices in the Senate while maintaining the confidentiality 
of information for Members and Senate employees.
    This past year the Office continued to work on several projects 
that required a significant level of staff resources and presented 
challenges. Among these projects were: (1) the testing and 
implementation of system changes to the Senate Payroll System (SPS) due 
to the upgrade to PeopleSoft version 9.2; (2) the development and roll-
out of an SPS self-service pilot; (3) the development of programming, 
testing and processes for the distribution of new Employer-Provided 
Health Insurance Offer and Coverage forms as required by the Affordable 
Care Act; (4) the implementation of the new Self+1 health enrollment 
codes; (5) the implementation of two FMIS releases to enhance 
applications security and to replace outdated financial system 
components; (6) the testing to modify our reporting capability to the 
U.S. Treasury; (7) the reorganization of the Disbursing Office 
Information Technology group to handle the Senate's FMIS modernization 
project and workload; and (8) the issuance and evaluation of a Request 
for Information (RFI) and the development of the Request for Proposal 
(RFP) for the financial system modernization.
    During April and October, the Office reviewed, validated and 
completed the Report of the Secretary of the Senate which continues to 
be issued electronically and in hardcopy version.
    In addition, the Disbursing Office compiled the 2016 operating 
budget of the Senate for presentation to the Committee on 
Appropriations and prepared and distributed budget justification 
worksheets to the various offices to gather the information needed for 
the fiscal year 2017 budget request and submission to the Office of 
Management and Budget.

                ADMINISTRATIVE AND EXECUTIVE OPERATIONS

                  senate chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of Joint Leadership in 
1993 after enactment of the Government Employee Rights Act, which 
allowed Senate employees to file claims of employment discrimination 
against Senate offices. With the enactment of the Congressional 
Accountability Act of 1995 (CAA), Senate offices became subject to the 
requirements, responsibilities and obligations of 12 employment laws. 
In accordance with the CAA, Congress has applied subsequently enacted 
employment laws to Senate offices, such as the Genetic Information Non-
Discrimination Act.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. In 
addition to litigating cases, the SCCE's attorneys provide legal advice 
to Senate offices. Accordingly, each of the clients of the Senate is an 
individual client of the SCCE, and each office maintains an attorney-
client relationship with the SCCE. The SCCE also conducts a robust 
training program, which includes seminars to educate Senate managers, 
staff and interns about how to identify, prevent, and address unlawful 
harassment in the workplace.
    The areas of responsibilities of the SCCE can be divided into the 
following categories: litigation (defending Senate offices in courts 
and at administrative hearings); mediations to resolve potential 
lawsuits; court-ordered alternative dispute resolutions; Occupational 
Safety and Health Act compliance; union drives, negotiations, and 
unfair labor practice charges; Americans with Disabilities Act 
compliance; layoffs and office closings in compliance with the law; 
management training regarding legal responsibilities and employee 
rights; employee and intern training regarding prohibited harassment, 
including sexual harassment; and preventive legal advice.
                     conservation and preservation
    The Office of Conservation and Preservation supports the official 
record preservation, presentation, and bookbinding needs of Senate 
leadership, committees, and offices.
    In 2015, the Office of Conservation and Preservation bound 1,350 
items, including the re-casing of 162 older books, congressional 
hearings, and Congressional Record volumes with new covers and end 
sheets, using existing spines when possible. The Office repaired an 
additional 324 books for the Senate Library and other offices, and 283 
new volumes were printed in-house and bound at the request of Senate 
offices. The Office also designed and fabricated 39 boxes or slipcases 
for maps and official programs in the Library's collections. In 
addition, 500 handmade covers were created to protect original 
pamphlets and brochures for the Library. The Office matted and framed 
458 items.
                                curator
    The Office of the Senate Curator, on behalf of the Senate 
Commission on Art, develops and implements the museum and preservation 
programs for the Senate. The Curator collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features. In addition the Curator exercises 
supervisory responsibility for the historic chambers in the Capitol 
under the jurisdiction of the Commission. Through exhibitions, 
publications, and other programs, the Curator educates the public about 
the Senate and its collections.
    In keeping with scheduled procedures, all Senate collection objects 
were inventoried in 2015, and any changes in location were recorded in 
the Curator's database. As directed by S. Res. 178 (108th Congress, 1st 
session), the Curator submitted a list of the art and historic 
furnishings in the Senate to the Committee on Rules and Administration. 
The list, known as the Historic Furnishings Inventory, documents the 
history of acquisition, use, and manufacturer for each object. Items on 
the inventory list are prohibited from removal or purchase. The 
inventory, which is submitted every 6 months, is compiled by the 
Curator with assistance from the SAA and the Architect of the Capitol's 
Superintendent of Senate Office Buildings.
    The Office continues to advance the preservation and documentation 
of the historic Russell Senate Office Building furnishings by 
conducting a yearly inspection of the use and location of the 63 flat-
top partner desks that remain in the Senate, and through educational 
initiatives aimed to inform Senate staff about the history of the 
furnishings.
    The Curator oversaw the restoration of the reproduction of 
Senators' chairs and side chairs in the Old Senate Chamber in 2015. The 
reproduction Senators' chairs, which are based on the original chairs 
made by Thomas Constantine in 1819, were made as part of the 1975-76 
restoration of the Chamber. Research by the Curator's Office revealed 
that the 1970's yellow upholstery was not historically accurate. 
Thorough examination of 19th-century archival records, including 
reports submitted by the Secretary of the Senate, and analysis of 
several chairs made by Constantine revealed new information that was 
not known in the 1970s. This new evidence allowed the Curator's Office 
to return the upholstery on the chairs to the original red color and 
appearance of the 1819 Senate Chamber chairs, ensuring a more 
historically accurate interpretation of the Chamber and its original 
furnishings. The re-upholstered chairs were reinstalled in the Chamber 
in November 2015.
    In 2015, 144 objects were accessioned into the Senate Collection. 
The most significant addition was the marble bust of Vice President 
Richard B. Cheney unveiled in December 2015.
    The Curator continued to maintain and interpret the Old Senate and 
Old Supreme Court Chambers and coordinate the use of both rooms 
following established guidelines and procedures approved by the Senate 
Commission on Art.
    A new exhibit was installed by the Curator into showcases in the 
vestibule outside SDG-50. Titled: At Work: Two Centuries of Senate 
Committees, the exhibit highlights the origin, expansion, and reform of 
Senate committees and was created in conjunction with the Senate 
Library and Senate Historical Office. The Curator also installed an 
exhibit in the first floor connecting corridor of the Senate wing of 
the Capitol. The display highlights the function and decoration of the 
mid-19th-century Senate extension.
                         education and training
    The Joint Office of Education and Training provides training for 
all Senate staff in Washington, DC, and in State offices. The Office 
provides performance skills training, technical skills training and 
coordinates major training events for Washington, DC and State staff.
    Education and Training partners with 15 other training providers to 
ensure the Senate staff have the resources and skills they need to 
perform their jobs. In 2015, Education and Training staff taught over 
250 classes and provided customized training, facilitation services, 
and coaching to more than 150 Senate Member, committee, and support 
offices, benefitting more than 2,200 staff. The Office held three 
training conferences for State staff with over 250 State staff 
participants.
    The Health Promotion Office within Education and Training is 
mandated to provide Health Promotion activities and events. This Office 
coordinates and runs a 2-day Health and Wellness Fair for Senate staff. 
In 2015, over 1,500 staff participated in health promotion activities, 
including lung function and kidney screenings, blood drives, and 
seminars on health-related topics.
                               gift shop
    The Gift Shop serves Senators and their spouses, staff, 
constituents, and the many visitors to the Capitol complex. The 
products available include a wide range of fine gift items, 
collectables, and souvenirs, many created exclusively for the Senate.
    In addition to over-the-counter and walk-in sales, the Gift Shop 
offers an order form through Webster and the administrative office 
provides mail order service, special order and catalogue sales. While 
the Gift shop maintains two physical locations, the Capitol kiosk is 
temporarily closed due to continued restoration of the Brumidi 
Corridors.
    Consistent with past practice, a transfer of $40,000 to the Senate 
Employees Child Care Center was made based on the annual sales of the 
Congressional Holiday Ornament (see 2 U.S.C. 6576(c)(3)). The Official 
2015 Congressional Holiday Ornament featured the Capitol dome as viewed 
from the West Front. Sales of the 2015 holiday ornament were just over 
24,000, of which almost 7,000 were personalized with engravings 
designed, proofed, and etched by the Gift Shop staff.
                           historical office
    Serving as the Senate's institutional memory, the Historical Office 
is comprised of historians and archivists. Senate historians collect 
and provide information on important events, precedents, statistics, 
and historical comparisons of current and past Senate activities. 
Senate archivists advise Senators, officers, and committees on cost-
effective disposition of their non-current office files and assist 
researchers in identifying Senate-related source materials. Historians 
edit for publication historically significant transcripts and minutes 
of selected Senate committees and party organizations and conduct oral 
history interviews. Historians also offer special talks and tours 
related to key historical events and personalities, the history of the 
Capitol, and the Senate's institutional development. In addition, the 
Historical Office develops and maintains all historical material on 
Senate.gov and provides educational outreach through e-mail and 
Twitter.
    In 2015 the Historical Office concluded its 5-year commemoration of 
the sesquicentennial of the Civil War. Beginning in December 2010, the 
Historical Office developed an extensive collection of essays, 
biographies, photographs, illustrations, chronologies, and primary 
source documents related to the history of the Senate during the Civil 
War. Senate historians developed and led special Civil War history 
tours of the Capitol and presented ``brownbag lunch'' talks. This 
multi-year project resulted in a comprehensive, stand-alone Web site 
feature on Senate.gov, a valuable resource for anyone interested in 
this important era of our national history.
    Since 1978, Senate historians have prepared and annotated 
transcripts of the Senate Foreign Relations Committee of the executive 
session hearings for publication. Twenty volumes have been completed to 
date, taking the series through 1968. In 2015 the Senate Historian and 
the Associate Historian continued work on a new volume to cover the 
years 1969 and 1970, editing the transcripts for declassification and 
publication.
    In 2015 the historians conducted nearly 70 oral history interviews 
with a wide-ranging group of individuals, including interviews with 14 
former Members and staff of the Select Committee to Study Governmental 
Operations with Respect to Intelligence Activities (better known as the 
Church Committee) to mark its 40th anniversary. The completed volume, 
to be released in 2016, includes 27 interviews, a comprehensive 
introduction, contextual annotations, and a detailed index.
    The Historical Office continued to expand its educational outreach 
in 2015 when the Historical Office's Twitter account gained more than 
8,000 new followers. Daily Tweets help raise awareness of the 
considerable resources available on Senate.gov to Senate staff, 
students, teachers, researchers, reporters, and the public. 
@SenateHistory highlights Senate-related events that occurred ``on this 
day'' in history, features specific Web pages and collections, and 
announces new material and information posted on Senate.gov. The 
Historical Office sent an average of 14 Tweets per week in 2015 and had 
more than 90 percent of those Tweets retweeted.
    Senate Rule XI (2) directs that, ``The Secretary of the Senate 
shall obtain at the close of each Congress all the noncurrent records 
of the Senate and of each Senate committee and transfer them to the 
National Archives for preservation.'' During 2015, the Senate 
transferred 2,030 cubic feet and 13.22 TB of electronic records to the 
Center for Legislative Archives (CLA).
    This Advisory Committee on the Records of Congress was established 
in 1990 by Public Law 101-509 and meets semiannually to advise the 
Senate, the House of Representatives, and the Archivist of the United 
States on the management and preservation of the records of Congress. 
By law, the committee is required to report to Congress every 6 years 
on the status of Congress' and Members' archival records. The most 
recent report was published December 31, 2012. The next report will be 
issued by December 31, 2018. The Secretary of the Senate is chairing 
the committee during the 114th Congress. The Senate Historian serves as 
a member of the committee and the Senate Archivist serves as principal 
liaison to the committee.
                            human resources
    The Office of Human Resources was established in June 1995 by the 
Secretary of the Senate as a result of the Congressional Accountability 
Act. The Office focuses on developing and implementing human resources 
policies, procedures, and programs for the Office of the Secretary. 
These responsibilities include recruiting and staffing; providing 
guidance and advice to managers and staff; training; performance 
management and evaluation; job analysis and classification; 
compensation planning, design, and administration; leave 
administration; records management; maintaining the employee handbooks 
and manuals; internal grievance procedures; employee relations and 
services; and organizational planning and development.
    The Office administers the following programs for the Secretary's 
employees: the public transportation subsidy program, student loan 
program, Family Medical Leave Act program, parking allocations, and the 
Secretary of the Senate intern program.
                          information systems
    The primary mission of the Office of Information Systems is to 
provide the highest level of customer satisfaction and computer support 
for the Office of Secretary. Information Systems provide technical 
hardware and software support for the Office of the Secretary. 
Information Systems also interfaces closely with the application and 
network development groups within the SAA, GPO, and outside vendors on 
technical issues and joint projects. The Office provides computer-
related support for all local area network (LAN) servers within the 
Office of the Secretary. Information Systems provides direct 
application support for all software installed on workstations, 
initiates and guides new technologies, and implements next generation 
hardware and software solutions. Emphasis is placed on creating and 
transferring legislative records to outside departments and agencies, 
fulfilling the Disbursing Office's financial responsibilities to Member 
offices, and complying with office-mandated and statutory obligations.
                      interparliamentary services
    The Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for special 
delegations authorized by the Majority and/or Minority Leaders, for all 
interparliamentary conferences in which the Senate participates by 
statute, and for interparliamentary conferences in which the Senate 
participates on an ad hoc basis. The office also provides appropriate 
assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are: the Mexico-United 
States Interparliamentary Group; the Canada-United States 
Interparliamentary Group; the British-American Interparliamentary 
Group; and the United States-China Interparliamentary Group.
    On behalf of the Senate Majority and Minority Leaders, the staff 
arranges official receptions for heads of state, heads of government, 
heads of parliaments, and parliamentary delegations. Required records 
of expenditures on behalf of foreign dignitaries under authority of 
Public Law 100-71 are maintained by IPS.
    IPS receives and prepares for printing the quarterly consolidated 
financial reports for foreign travel from all committees in the Senate. 
In addition to preparing the quarterly reports for the Majority Leader 
and the Minority Leader, IPS also assists staff members of Senators and 
committees in filling out the required reports.
          legislative information system (lis) project office
    See the section on the LIS Project under the heading ``Update on 
the Status of the Legislative Information System (LIS)'' in the BUDGET 
REQUEST section.
                                library
    The Senate Library provides legislative, legal, business, and 
general information services. The Library's collection encompasses 
legislative documents that date from the Continental Congress in 1774; 
current and historic executive and judicial branch materials; an 
extensive book collection on American politics, history, and biography; 
a popular collection of audiobooks; and a wide array of online 
resources. The Library also authors content for three Web sites--
LIS.gov, Senate.gov, and Webster.
    Senate Information Services (SIS) Program service contracts for 
fiscal year 2016 were renewed with existing program vendors to continue 
services while meeting stringent program budget constraints. SIS 
program managers worked with information technology specialists in the 
SAA's Department of Process Management and Innovation, and with the 
vendor's technical staff to implement single sign-on authentication and 
update the Senate's custom user interface for one of the enterprise-
wide legal services providers. Work was also completed on a 
comprehensive redesign of Senate Newswatch, offering a contemporary 
presentation of the news important to the Senate with improved 
usability and new features for searching, clipping, and sharing 
stories.
    The Library continues to meet the Senate's increasing demand for 
information through the creation of new Web-based content, judicious 
selection and investment in online resources, expanded outreach and 
training opportunities, and use of technology to support alternative 
means for information delivery.
                              page school
    The Senate Page School serves all appointed Senate page students 
with a sound program, both academically and experientially, during 
their stay in the Nation's capital.
    In 2013 the Middle States Commission on Secondary Schools awarded 
accreditation renewal which continues until May 1, 2018. The Page 
School is among schools throughout the world that meet the 
internationally recognized standards of quality.
    Faculty and staff provided extended educational experiences to 
pages, including field trips, guest speakers, opportunities to play 
musical instruments and vocalize, and world languages study. The 
community service project embraced by pages and staff continues. Pages 
collected, assembled, and shipped items for gift packages to military 
personnel serving in various locations and included letters of support 
to the troops.
                     printing and document services
    The Office of Printing and Document Services (OPDS) serves as 
liaison to GPO for the Senate's official printing, ensuring that all 
Senate printing is in compliance with Title 44, U.S. Code as it relates 
to Senate documents, hearings, committee prints and other official 
publications. The Office assists the Senate by coordinating, 
scheduling, delivering and preparing Senate legislation, hearings, 
documents, committee prints and miscellaneous publications for 
printing, and provides printed copies of all legislation and public 
laws to the Senate and the public. In addition, the Office assigns 
publication numbers to all hearings, and committee prints; as well as 
documents and other publications; orders all blank paper, envelopes and 
letterhead for the Senate; and prepares page counts of all Senate 
hearings in order to compensate commercial reporting companies for the 
preparation of hearings.
    During fiscal year 2015, the OPDS prepared 2,893 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record--an increase of 17 percent 
over the previous year. In addition to processing requisitions, the 
Printing Services Section coordinates proof handling, job scheduling 
and tracking for stationery products, Senate hearings, Senate 
publications and other miscellaneous printed products, as well as 
monitoring blank paper and stationery allocations for each Senate 
office and committee. Examples of major printing projects include: the 
Report of the Secretary of the Senate, the 114th Congress Congressional 
Directory, the Authority and Rules of Senate Committees, and the 
Journal of Senate Proceedings, 113th Congress 2nd Session.
    During 2015, OPDS processed and distributed over 9,700 distinct 
legislative items as well as fulfilled over 10,000 requests for 
legislative material at the walk-in counter, by mail, fax, and 
electronically. In shop on-demand printing increased two-fold over the 
previous year to supplement depleted inventory and meet committee 
needs. Online ordering of legislative documents and the Legislative Hot 
List Link, where Members and staff can confirm arrival of printed 
copies of the most sought after legislative documents, continued to be 
popular. The site is updated several times daily each time new 
documents arrive from GPO to the Document Room. In addition, the Office 
handled thousands of phone calls pertaining to the Senate's official 
printing, document requests and legislative questions.
                             public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act (LDA) of 1995, as amended; the Senate Code of 
Official Conduct; Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports. The 
office works closely with the Federal Election Commission (FEC), the 
Senate Select Committee on Ethics, and the Clerk of the House 
concerning the filing requirements of the aforementioned acts and 
Senate rules.
    From October 2014 through September 2015, Public Records assisted 
more than 10,000 individuals seeking information from or about reports 
filed with the office, responded to walk-in inquiries and inquiries by 
telephone or e-mail. In addition, the Office provided assistance to 
individuals seeking to comply with the provisions of the LDA.
    The LDA requires semiannual contribution reports, and quarterly 
financial and lobbying activity reports. To continue implementation of 
the LDA, the Office of Public Records conducted two LDA Guidance 
reviews in coordination with the Clerk of the House. As of September 
30, 2015, there were 4,435 registrants representing 16,407 clients. The 
total number of individual lobbyists disclosed on fiscal year 2015 
registrations and reports was 11,948. The total number of lobbying 
registrations and reports processed was 106,955. The Office referred 
622 cases of potential noncompliance to the U.S. Attorney for the 
District of Columbia.
    The Federal Election Campaign Act requires Senate candidates to 
file quarterly and pre- and post-election reports with the Secretary of 
the Senate. Filings for the fiscal year totaled 4,207 documents 
containing 548,088 pages, which were scanned, processed, and 
transmitted to the FEC, as required by law.
    The filing date for Public Financial Disclosure Reports was May 15, 
2015. The reports were made available to the public and media as soon 
as they were filed and processed, and in most cases, the same day. 
Public Records staff provided copies to the Ethics Committee and the 
appropriate State officials.
    Senators are required to file mass mailing reports on a quarterly 
basis. The number of pages submitted during fiscal year 2015 was 364. 
In addition, the Office received 445 Gift Rule/Travel reports during 
fiscal year 2015.
                            stationery room
    Since it was formally established in 1854, the Senate Stationery 
Room has evolved into a diversified retail outlet serving the needs of 
the Senate community by providing a wide range of office and 
administrative supplies, communication and computer accessories, and 
special order items for official government business. Additionally, the 
Stationery Room provides U.S. flags flown over the Capitol for 
constituent requests.
    The Stationery Room fulfills its mission by utilizing open market, 
competitive bid, or General Services Administration (GSA) schedules for 
supply procurement; maintaining sufficient in-stock quantities of 
select merchandise to best meet the immediate needs of the Senate 
community; developing and maintaining productive business relationships 
with a wide variety of vendors to ensure sufficient breadth and 
availability of merchandise; maintaining expense accounts for all 
authorized customers and preparing monthly activity statements; and 
managing all accounts receivable and accounts payable reimbursement.
    Utilizing the Pay.gov service offered by the U.S. Treasury, the 
Stationery Room has been accepting online flag requests and payments 
from constituents through Member Web sites. Currently, 66 Member 
offices are offering this payment option and 7 offices are in the 
beginning stages of the program. The benefits include a reduced wait 
time for constituents, elimination of payment inaccuracies, and greatly 
reduced workload for office representatives. The Stationery Room will 
continue to expand this service to interested Member offices.
    The Stationery Room contracts annually with various vendors to 
provide U.S. flags. The flags are purchased by constituents through 
individual Member offices, and are flown over the Capitol building for 
commemoration of special occasions. While many flags are flown for 
specific reasons, some are not and the Stationery Room sells pre-flown 
flags for offices to meet those generic requests. This cooperative 
relationship offers the Capitol Visitor Center (CVC) considerable 
savings on flag purchases through the Stationery Room's existing 
procurement contract and allows the Stationery Room to benefit from 
larger volume discounts.
    The Stationery Room, with the assistance of the Office of Web 
Technology, maintains an online Web ordering portal through Webster. 
The Web site offers the Stationery Room catalog with product 
description, price, and pictures. Customers can place a stock order 
online and the order will be delivered within 24 hours. Use of the Web 
site helps reduce order time, increases customer convenience and order 
accuracy, and reduces the use of paper through reduced reliance on hard 
copy orders. Currently, the Stationery Room is in the process of 
upgrading the online Web site with the assistance of the Office of Web 
Technology, to include an enhanced search engine, modernized layout and 
easier checkout.
                             web technology
    The Office of Web Technology is responsible for: Senate.gov; the 
Secretary's intranet on Webster; portions of the central site of 
Webster; and legbranch.senate.gov (an extranet site available to all 
Capitol Hill entities)--along with the Web-based systems, servers, and 
technologies supporting these Web sites that fall under the purview of 
the Secretary of the Senate.
    Senate.gov content is maintained by over 30 contributors from seven 
departments of the Office of the Secretary and three departments of 
SAA. All content is controlled through the Secretary's Web content 
management system, managed by the Office of Web Technology.
    A new version of the content management system was implemented in 
conjunction with a new architecture ensuring stability and security. 
Extensive research was conducted including the deployment of an 
alternative content management system in preparation for the eventual 
replacement of the current content management system.
    In 2015, seven features, nine oral histories, and seven Senate 
Stories authored by the Senate Historical Office were added to 
Senate.gov. In addition, 85 artifacts under the Curator's management 
were added. 78 legacy slideshows were recoded to be more secure and use 
fewer resources. The main Art & History page along with significant 
secondary pages were refined to provide quicker access to lower level 
content and as part of the transition to a new mobile friendly design 
currently in development. Friendly URLs were added in addition to two 
domain wide security pages alerting the public to potential security 
risks in submitted messages, making suggestions for remediation, and 
providing useful resources online.
    In conjunction with the SAA a new mobile Web site, 
opmupdate.senate.gov, was developed and maintained as a clearinghouse 
for all messages relating to the OPM intrusions made public in 2015 
affecting many Senate staff. Additionally, the Office of the Senate 
Chief Counsel for Employment's Web site on Webster was updated and a 
new modern stationery order form is under development that will provide 
offices with quick and secure online ordering.
    The Office also worked extensively with Senate clerks and the 
Library of Congress (LOC) in the refinement of Congress.gov and the 
dissemination of legislative bulk data, allowing for increased accuracy 
and transparency of Congressional information. Part of these processes 
involved expanding legbranch.senate.gov to host newly generated data 
feeds for the Congressional community.
    In 2015 an average of 29,762 visits occurred per day to the central 
site of Senate.gov. The Office responded to approximately 593 emails 
from the general public regarding Senate.gov sites.

             EMERGENCY PREPAREDNESS AND CONTINUITY PLANNING

    Throughout 2015, the Office of the Secretary continued to build 
upon a comprehensive emergency preparedness and continuity program 
initiated in 1997. The program included continuity operations (COOP) 
planning within every department of the Office of the Secretary and 
coordination with Leadership and SAA on Senate-wide continuity plans, 
as well as joint planning with the House of Representatives on 
bicameral programs, and inter-Branch coordination with the executive 
and judicial branches. The objective of these programs is to provide 
Leadership with the tools needed to ensure that the Senate can meet its 
constitutional obligations under any circumstances.
    The Joint Senate Leadership established the Senate Continuity Board 
(SCB), consisting of the Secretary of the Senate and the Senate 
Sergeant at Arms, to manage and direct Senate continuity programs. The 
Joint Bicameral Leadership established the Joint Congressional 
Continuity Board (JCCB), consisting of the principal Senate and House 
Officers, to integrate Senate and House continuity programs. In 2015, 
the Secretary served as Chair of both Boards. Both the SCB and the JCCB 
met monthly throughout the year to manage and direct the full range of 
Senate and bicameral continuity programs.
    Within the Office of the Secretary, the primary objective is the 
continuity of the legislative process. The Legislative Staff and 
supporting offices maintain and regularly exercise plans to ensure that 
the Senate can convene and conduct legislative business under any 
conditions in various locations. Departments responsible for the 
execution of statutory obligations, such as the Disbursing Office and 
the Office of Public Records, maintain plans to carry out those 
functions, either locally or elsewhere, depending upon conditions. The 
Secretary's Legislative departments, as well as several others, employ 
robust cross-training programs to ensure that staff with critical 
skills will be available in an emergency. All departments within the 
Office of the Secretary maintain individual plans to ensure that each 
department can carry out its minimum essential functions during an 
emergency, until full operations can be restored. All departmental 
plans are supported by emergency supply kits stored in multiple 
locations within and outside the District of Columbia. Across the 
Office of the Secretary, monthly drills, annual exercises, and fly away 
kit updates are conducted in order to ensure that plans and supply kits 
are current, and that staff understand their continuity 
responsibilities.
</pre></body></html>
